Case: 18-11168

Document: 00515666368

Page: 1

Date Filed: 12/08/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 18-11168

December 8, 2020
Lyle W. Cayce
Clerk

United States of America,

Plaintiff—Appellant,
versus
Eddie Lamont Lipscomb,
Defendant—Appellee.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:07-CR-375-M
Before Clement, Ho, and Duncan, Circuit Judges.
Edith Brown Clement, Circuit Judge:
In 2007, a Dallas police officer arrested Eddie Lipscomb for illegal
possession of a sawed-off shotgun. Lipscomb, who had nine prior felony
convictions, pleaded guilty to illegal possession of a firearm by a felon in
violation of 18 U.S.C. § 922(g). The district court then sentenced Lipscomb
to 20 years in prison—a sentence that fell between the 15-year statutory
minimum required by the Armed Career Criminal Act (ACCA), 18 U.S.C.
§ 924(e)(1), and the 24-year bottom of the sentencing guidelines. We
affirmed in United States v. Lipscomb, 619 F.3d 474, 476 (5th Cir. 2010).

Lipscomb v. United States
Petition Appendix

1a

Case: 18-11168

Document: 00515666368

Page: 2

Date Filed: 12/08/2020

No. 18-11168

Years later, Lipscomb moved for release under 28 U.S.C. § 2255,
based on the Supreme Court’s holding in Johnson v. United States, 576 U.S.
591, 597 (2015), that the residual clause of the ACCA’s violent felony
definition violated due process. Over the Government’s objection, the
district court granted Lipscomb’s motion, concluding that he did not have
the requisite three violent felonies to mark him as an armed career criminal.
See 18 U.S.C. § 924(e)(1). The district court amended its judgment, reducing
Lipscomb’s sentence to ten years. See id. § 924(a)(2). Lipscomb was
immediately released on time served, and the Government appealed.
In the years since the Government filed its appeal, our cases have
crystalized in this area. It is settled: Lipscomb’s prior convictions designated
him an armed career criminal at the time of his sentencing. Because the
district court erred in granting Lipscomb’s section 2255 motion to the
contrary, we vacate that order and direct the district court to reinstate its
original judgment.
I.
Under the ACCA, “a person who violates section 922(g),” as
Lipscomb did, “and has three previous convictions . . . for a violent felony . . .
committed on occasions different from one another,” faces a statutory
minimum 15-year prison sentence. 18 U.S.C. § 924(e)(1). In relevant part,
the statute defines a “violent felony” as “any crime punishable by
imprisonment for a term exceeding one year . . . that — (i) has as an element
the use, attempted use, or threatened use of physical force against the person
of another; or (ii) is burglary,” or another enumerated offense. Id.
§ 924(e)(2)(B).
Among Lipscomb’s nine prior felonies at the time of his 2007 arrest
were two convictions for burglary—in 1993 and 1994—and four for
robbery—one in 1994 and three in 2004. The Government does not argue

Lipscomb v. United States
Petition Appendix

2

2a

Case: 18-11168

Document: 00515666368

Page: 3

Date Filed: 12/08/2020

No. 18-11168

that the three 2004 robbery convictions were “committed on occasions
different from one another,” and, since it does not change our analysis, we
will treat them as one. See id. § 924(e)(1).
In granting Lipscomb’s section 2255 motion, the district court
concluded that the robbery convictions did not qualify as violent offenses
because they did not meet the elements requirement of § 924(e)(2)(B)(i). 1
Our recent cases demonstrate that was incorrect. In United States v. Burris,
we held that “robbery under Texas Penal Code § 29.02(a) requires the ‘use,
attempted use, or threatened use of physical force.’” 920 F.3d 942, 945 (5th
Cir. 2019); see 18 U.S.C. § 924(e)(2)(B)(i). Likewise, we held in United States
v. Herrold, that “burglary convictions . . . under [Texas Penal Code] Section
30.02(a)(1) [are] generic burglary” as that term is used in 18 U.S.C.
§ 924(e)(2)(B)(ii). 941 F.3d 173, 182 (5th Cir. 2019) (en banc), cert. denied, --S. Ct. ---, 2020 WL 5882400 (mem.) (Oct. 5, 2020). At the time of his
sentencing, Lipscomb had the three previous violent felony convictions to
bring him under the ACCA’s ambit. It is clear that the district court’s order
granting Lipscomb’s section 2255 motion was in error. 2 Nor does Lipscomb
dispute this. 3
II.
Lipscomb does, however, dispute what this court should do about it.
We address, and ultimately reject, each of Lipscomb’s three proposals.

1

We review this decision de novo. United States v. Fuller, 453 F.3d 274, 278 (5th
Cir. 2006).
2

See United States v. Matthews, 799 F. App’x 300 (5th Cir. 2020) (summarily
affirming findings that Texas robbery and Texas burglary are categorically violent felonies
for purposes of ACCA).
3

Lipscomb preserves for further review his argument that Burris and Herrold were
wrongly decided.

Lipscomb v. United States
Petition Appendix

3

3a

Case: 18-11168

Document: 00515666368

Page: 4

Date Filed: 12/08/2020

No. 18-11168

First, Lipscomb argues that the Government is estopped from
appealing the district court’s order because, during the pendency of this
appeal, the Government “twice secured Mr. Lipscomb’s reincarceration on
allegations that he had violated his conditions of supervised release.” If this
sounds dubious, it is.
“Estoppel against the government is problematical at best.” United
States v. Perez-Torres, 15 F.3d 403, 407 (5th Cir. 1994) (citing Off. of Pers.
Mgmt. v. Richmond, 496 U.S. 414 (1990)). “[I]f estoppel were to be available
against the government at all it would ‘at least’ require demonstrating all the
traditional equitable prerequisites.” Id. (quoting Heckler v. Cmty. Health
Servs. of Crawford, 467 U.S. 51, 61 (1984)) (emphasis added). But, as an
equitable doctrine, estoppel requires that “he who comes into equity must
come with clean hands.” Id. (quotation omitted). If not, “the doors of equity
are closed to one tainted with inequitableness or bad faith relative to the
matter in which he seeks relief, however improper may have been the
behavior of the other party.” Id. (quotation omitted). More than that,
estoppel “assumes even wider and more significant proportions where the
matter in issue concerns the public interest, for in such an instance the denial
of equitable relief averts an injury to the public.” Id. (quotation omitted).
So, in Perez-Torres, we declined to estop the defendant’s prosecution
for illegally reentering the United States after deportation, because “he [was]
tainted with extreme bad faith, for he knew such conduct was a felony and
nevertheless willfully and purposefully engaged in it.” Id. Estoppel is equally
inapposite here. Lipscomb argues that the Government cannot pursue this
appeal because it took remedial action to secure his incarceration after he
violated his supervisory release conditions. But, critically, the Government
only took its actions in response to Lipscomb’s violations. His hands are far
from clean.

Lipscomb v. United States
Petition Appendix

4

4a

Case: 18-11168

Document: 00515666368

Page: 5

Date Filed: 12/08/2020

No. 18-11168

Lipscomb offers no persuasive authority to the contrary. All his cited
cases are non-binding, out-of-circuit decisions, and none involve the
Government or a criminal prosecution. See Wohl v. Keene, 476 F.2d 171, 177
(4th Cir. 1973); In re Greenpoint Metallic Bed Co., 113 F.2d 881, 884 (2d Cir.
1940); Smith v. Morris, 69 F.2d 3, 4–5 (3d Cir. 1934); Albright v. Oyster, 60 F.
644 (8th Cir. 1894). We are unpersuaded.
Second, Lipscomb argues that “basic fairness” compels a stay until the
Supreme Court considers a case that will determine whether Burris was
decided correctly. See Borden v. United States, 140 S. Ct. 1262 (Mar. 2, 2020)
(No. 19-5410) (granting petition for certiorari). Lipscomb notes that the court
previously granted the Government’s requested stays to allow for resolution
of United States v. Reyes-Contreras, 910 F.3d 169 (5th Cir. 2018) (en banc),
Herrold, 941 F.3d at 173, and Walker v. United States, 140 S. Ct. 519 (Nov. 15,
2019) (No. 19-373) (granting petition for certiorari), abrogated by 140 S. Ct.
953 (Jan. 27, 2020) (dismissing petition because of petitioner’s death). Now
that the case law supports the Government, Lipscomb asks for the same
opportunity.
In arguing for fairness, Lipscomb acknowledges that “we remain
bound to follow our precedent even when the Supreme Court grants
certiorari on an issue.” United States v. Lopez-Velasquez, 526 F.3d 804, 808
n.1 (5th Cir. 2008). Whatever his argument’s intuitive appeal, we
nevertheless “remain bound.” We granted the Government’s motions to
stay its appeal (some of them, as Lipscomb acknowledges, unopposed) in the
interest of resolving unsettled questions that directly affected this appeal.
Those questions are now settled on the firmest foundations of our court. See
Burris, 920 F.3d at 945; Herrold, 941 F.3d at 182 (en banc), cert. denied, ---

Lipscomb v. United States
Petition Appendix

5

5a

Case: 18-11168

Document: 00515666368

Page: 6

Date Filed: 12/08/2020

No. 18-11168

S. Ct. ---, 2020 WL 5882400; see also Reyes-Contreras, 910 F.3d at 169 (en
banc). We will not delay any longer. 4
Third, if we reverse, Lipscomb asks us to “remand rather than render
judgment for the Government,” so the district court can decide how to
resolve this sentence and the two revocation judgments against Lipscomb. Of
course, the district court must preside over the revocation judgments in the
first instance. But as to the erroneous section 2255 order, Lipscomb offers no
support for his assertion that the district court is better suited to correct its
judgment.
***
The district court’s order granting Lipscomb’s motion for release
under 28 U.S.C. § 2255 is hereby VACATED and REMANDED for the
district court to reinstate its original judgment.

4

In addition to Lipscomb’s violations of supervised release, the Government cites
five state criminal cases against Lipscomb since his release. These alleged offenses also
counsel against further delay. For example, in August 2020, Lipscomb was arrested for a
robbery in which he allegedly choked and threatened to kill his ex-girlfriend. Based on that
incident, we granted the government’s motion to expedite Lipscomb’s appeal.

Lipscomb v. United States
Petition Appendix

6

6a

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 1 of 14 PageID 92

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
EDDIE LAMONT LIPSCOMB,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)

No. 3:16-CV-1500-M-BH
No. 3:07-CR-357-M
Referred to U.S. Magistrate Judge

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
By Special Order 3-251, this habeas case has been automatically referred for findings,
conclusions, and recommendation. Based on the relevant findings and applicable law, the amended
Motion Under 28 U.S.C. § 2255, to Vacate, Set Aside, or Correct Sentence by a Person in Federal
Custody, filed on June 6, 2016, should be GRANTED, the sentence should be vacated, and the
movant should be re-sentenced.
I. BACKGROUND
Eddie Lamont Lipscomb (Movant) challenges his federal conviction and sentence in Cause
No. 3:07-CR-357-M. The respondent is the United States of America (Government).
By indictment filed on November 28, 2007, Movant was charged with being a felon in
possession of a firearm in violation of 18 U.S.C. §§ 922(g)(1), 924(e)(1). (See doc. 1.)1 He pled
guilty on June 25, 2008. (See doc. 30.) On August 13, 2008, the United States Probation Office
(USPO) prepared a Presentence Report (PSR), applying the 2007 United States Sentencing
Guidelines Manual (USSG). (See doc. 54 at 5, ¶ 13.) It found that Movant was an armed career
criminal because his federal conviction under 18 U.S.C. § 924(e) subjected him to an enhanced
sentence based on his prior violent felony convictions for burglary of a habitation and four robberies,
1

Unless otherwise indicated, all document numbers refer to the docket number assigned in the underlying criminal
action, 3:12-CR-126-L.

Lipscomb v. United States
Petition Appendix

7a

18-11168.604

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 2 of 14 PageID 93

resulting in an offense level of 35. (See id. at 5, ¶ 7; 7. ¶¶ 24, 26.) With a criminal history category
of six, the resulting guideline range was 292-365 months’ imprisonment. (See id. at 18, ¶ 77.)
February 18, 2009, Movant was sentenced to 240 months’ imprisonment. (See doc. 45 at 2.) The
judgment was affirmed on appeal. (See doc. 64); United States v. Lipscomb, No. 09-10240 (5th Cir.
Sept. 13, 2010).
Movant claims that his sentence was enhanced under the unconstitutional residual clause of
the Armed Career Criminal Act (ACCA), and his sentence was unconstitutionally enhanced under
the residual clause of USSG § 4B1.2. (See 3:16-CV-1500-M, doc. 1 at 7.) The Government filed
a response on December 2, 2016. (See id., doc. 11.) Movant’s reply, filed on June 15, 2017,
conceded that his claim regarding the sentencing guideline is not a basis for relief in light of Beckles
v. United States, 137 S.Ct. 886, 895 (2017) (holding that the sentencing guidelines are not subject
to a vagueness challenge under the Due Process Clause). (See id., doc. 16 at 1.)
II. SCOPE OF RELIEF AVAILABLE UNDER § 2255
“Relief under 28 U.S.C. § 2255 is reserved for transgressions of constitutional rights and for
a narrow range of injuries that could not have been raised on direct appeal and would, if condoned,
result in a complete miscarriage of justice.” United States v. Gaudet, 81 F.3d 585, 589 (5th Cir.
1996) (citations and internal quotation marks omitted). It is well-established that “a collateral
challenge may not do service for an appeal.” United States v. Shaid, 937 F.2d 228, 231 (5th Cir.
1991) (en banc) (quoting United States v. Frady, 456 U.S. 152, 165 (1982)).
A failure to raise a claim on direct appeal may procedurally bar an individual from raising
the claim on collateral review. United States v. Willis, 273 F.3d 592, 595 (5th Cir. 2001).
Defendants may only collaterally attack their convictions on grounds of error omitted from their
direct appeals upon showing “cause” for the omission and “actual prejudice” resulting from the
2

Lipscomb v. United States
Petition Appendix

8a

18-11168.605

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 3 of 14 PageID 94

error. Shaid, 937 F.2d at 232. However, “there is no procedural default for failure to raise an
ineffective-assistance claim on direct appeal” because “requiring a criminal defendant to bring
[such] claims on direct appeal does not promote the[] objectives” of the procedural default doctrine,
“to conserve judicial resources and to respect the law’s important interest in the finality of
judgments.” Massaro v. United States, 538 U.S. 500, 503-04 (2003). The Government may also
waive the procedural bar defense. Willis, 273 F.3d at 597.
III. ARMED CAREER CRIMINAL ACT
As the Supreme Court of the United States noted in Johnson,
Federal law forbids certain people—such as convicted felons, persons committed to
mental institutions, and drug users—to ship, possess, and receive firearms. § 922(g).
In general, the law punishes violation of this ban by up to 10 years’ imprisonment.
§ 924(a)(2). But if the violator has three or more earlier convictions for a “serious
drug offense” or a “violent felony,” [Section 924 of ] the Armed Career Criminal Act
increases his prison term to a minimum of 15 years and a maximum of life. §
924(e)(1); Johnson v. United States, 559 U.S. 133, 136, 130 S.Ct. 1265, 176 L.Ed.2d
1 (2010). The Act defines “violent felony” as follows”
any crime punishable by imprisonment for a term exceeding one year ...
that—
(i) has as an element the use, attempted use, or threatened use of physical
force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or otherwise
involves conduct that presents a serious potential risk of physical injury to
another. § 924(e)(2)(B) (emphasis added).
135 S.Ct. at 2555-56. Subsection (i) is known either as the force clause, United States v. Lerma, 877
F.3d 628, 630 (5th Cir. 2017), or as the elements clause, United States v. Taylor, 873 F.3d 476, 477
n.1 (5th Cir. 2017). The four offenses listed in subsection (ii) are referred to as the “enumerated
offenses,” see United States v. Davis, 487 F.3d 282, 285 (5th Cir. 2007), or as the “enumerated
offenses clause,” Taylor, 873 F.3d at 477 n.1. The remainder of the subsection is known as the
3

Lipscomb v. United States
Petition Appendix

9a

18-11168.606

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 4 of 14 PageID 95

“residual clause,” Johnson, 135 S.Ct. 2555-56.
Johnson held that the imposition of an increased sentenced under ACCA’s residual clause
violates the Constitution’s guarantee of due process because the residual clause is unconstitutionally
vague. Johnson, 135 S. Ct. at 2563.2 After Johnson, a crime is a violent felony under ACCA only
if it is one of the enumerated offenses, or if it qualifies under the force clause. United States v.
Moore, 711 F. App’x 757, 759 (5th Cir. 2017) (per curiam).
Here, the offense of which Movant was convicted in four cases, robbery, is not an
enumerated offense. The Fifth Circuit Court of Appeals does not appear to have considered whether
it qualifies as a violent felony under ACCA’s force clause because it has as an element the use,
attempted use, or threatened use of physical force.
IV. TEXAS ROBBERY STATUTE
The version of Texas Penal Code § 29.02 in effect when Movant committed the robberies
in 1994 and 2004 stated:
(a) A person commits an offense if, in the course of committing theft as defined in
Chapter 31 and with intent to obtain or maintain control of the property, he:
(1) intentionally, knowingly, or recklessly causes bodily injury to another; or
(2) intentionally or knowingly threatens or places another in fear of imminent
bodily injury or death.
Tex. Penal Code § 29.02 (1974); see Act of June 14, 1973, 63rd Leg., R.S., ch. 399, § 1, 1973 Tex.
Gen. Laws 883, 926.
A.

Applicable Approach
To determine whether a crime is a violent felony under the force clause, courts use either the

2

This holding is retroactively available on collateral review. Welch v. United States, 136 S.Ct. 1257, 1268 (2016).
4

Lipscomb v. United States
Petition Appendix

10a

18-11168.607

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 5 of 14 PageID 96

categorical approach or the modified categorical approach, depending on whether the statute setting
out the offense is indivisible or divisible. See Lerma, 877 F.3d at 631; United States v. Howell, 838
F.3d 489, 494-95 (5th Cir. 2016). An indivisible statute sets out “a single set of elements
[defining]”, or “various means of committing,” a single crime or offense. Lerma, 877 F.3d at 631;
Howell, 838 F.3d at 497. A divisible statute “lists multiple, alternative elements, and so effectively
creates ‘several different ... crimes.’” Descamps v. United States, 133 S. Ct. 2276, 2285 (2013)
(quoting Nijhawan v. Holder, 557 U.S. 29, 41 (2009)).
“Elements are the constituent parts of a crime’s legal definition”, i.e., what the prosecution
must prove and the jury must find beyond a reasonable doubt to convict the defendant, or what the
defendant must admit when he pleads guilty. Mathis v. United States, 136 S.Ct. 2243, 2248 (2016).
“An element of a crime must be distinguished from the means of satisfying a single element.”
Lerma, 877 F.3d at 631. The test for determining whether a statute alternatively sets out elements
or means of satisfying an element is whether a jury must agree on one of the statutory alternatives
in reaching a verdict. Howell, 838 F.3d at 497.
Elements must be agreed upon by a jury. When a jury is not required to agree on the way
that a particular requirement of an offense is met, the way of satisfying that requirement is
a means of committing an offense not an element of the offense.
Id. at 498 (quoting United States v. Hinkle, 832 F.3d 569, 574-75 (5th Cir. 2016)).
If a statute is indivisible because it sets out a single set of elements, the sentencing court must
apply the “categorical approach.” Mathis,136 S.Ct. at 2248. It “requires the sentencing court, when
determining whether a crime qualifies as a violent felony under the elements [or force] clause, to
focus solely on whether the elements of the crime of conviction include the use, attempted use, or
threatened use of physical force against the person of another.” Lerma, 877 F.3d at 630. “The
sentencing court is not permitted to review the particular facts of the case.” Id.
5

Lipscomb v. United States
Petition Appendix

11a

18-11168.608

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 6 of 14 PageID 97

If a statute is divisible because it lists alternative elements, the sentencing court must use the
“modified categorical approach” to determine the elements under which the defendant was
convicted. Mathis, 136 S.Ct. at 2253. Under this approach, the court looks “to a limited class of
documents (for example, the indictment, jury instructions, or plea agreement and colloquy) to
determine what crime, with what elements, a defendant was convicted of [committing].” Id. at 2249
(citations omitted). “The court can then determine, in deciding whether the crime satisfies the
elements [or force] clause, if one of those elements included the use, attempted use, or threatened
use of physical force against the person of another.” Lerma, 877 F.3d at 630.
To determine whether a statute is divisible or indivisible, courts may consider several
sources, including the statutory text and state court decisions. United States v. Reyes-Contreras, 882
F.3d 113, 119 (5th Cir. 2018).
Texas courts do not appear to have conclusively addressed whether jury unanimity is
required for the bodily injury and threat elements set out in subsections (1) and (2) of the robbery
statute.3 Robbery is a form of assault, however, with theft as the underlying offense. See Ex parte
Hawkins, 6 S.W.3d 554, 559-60 (Tex. Crim. App. 1999). The bodily injury and threat elements in
the robbery statute are almost identical to those of the assault statute.4 See Fennell, 2016 WL

3

In an aggravated robbery case, a state appellate court held that the two assaultive elements of the underlying robbery
offense (bodily injury or threat) are the same offense because a conviction for two aggravated robberies of the same
victim from the same incident, where one underlying robbery is based on bodily injury and the other robbery is based
on threat, would be double jeopardy. Burton v. State, 510 S.W.3d 232, 237 (Tex. App. – Fort Worth 2017) (citing
Cooper v. State, 430 S.W.3d 426 (Tex. Crim. App. 2014)). The Fifth Circuit declined to rely on Burton in determining
whether the aggravated robbery statute is divisible or indivisible. See Lerma, 877 F.3d at 634 n.4. It observed that the
issue in Cooper was whether a person could be convicted of robbing the same person twice at the same time, and not
whether the statute is divisible. Id. at 634. State court cases on double jeopardy are not a source for determining whether
a statute is divisible. United States v. Herrold, 883 F.3d 517, 528-29 (5th Cir. 2018).

4

A person commits assault if the person “(1) intentionally, knowingly, or recklessly causes bodily injury to another,
including the person’s spouse” or “(2) intentionally or knowingly threatens another with imminent bodily injury.” Tex.
Penal Code § 22.01(a)(1), (2). The only difference between these elements of an assault offense and the elements of
robbery is that the assault statute provides that the spouse of the actor can be a victim of assault by bodily injury.
6

Lipscomb v. United States
Petition Appendix

12a

18-11168.609

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 7 of 14 PageID 98

4491728 at *5. The state court decisions regarding the divisibility of the assault statute are therefore
instructive.
The Texas Court of Criminal Appeals has explained that assault by bodily injury and assault
by threat are separate crimes because one is a result-oriented offense (bodily injury) and the other
is a conduct-oriented offense (threat). Landrian v. State, 268 S.W.3d 532, 540 (Tex. Crim. App.
2008), citing with approval, Dolkart v. State, 197 S.W.3d 887, 893 (Tex. App. – Dallas 2006)
(holding that in order to convict of assault, a jury must agree whether the offense was assault by
bodily injury or assault by threat); Gonzales v. State, 191 S.W.3d 741, 748-49 (Tex. App. – Waco
2006) (same); and Marinos v. State, 186 S.W.3d 167, 174-75 (Tex. App. – Austin 2006) (same).
Because Texas courts have found that the bodily injury and threat elements of the assault statute set
out separate offenses, and a jury is required to agree on which of the two statutory alternatives a
defendant violated for purposes of that statute, the Court finds that the almost identically-worded
elements in the robbery statute also set out separate offenses.
Because the elements of the robbery statute set out separate offenses, the statute is divisible.
See Lerma, 877 F.3d at 631; Howell, 838 F.3d at 497. The applicable approach for determining
whether the offense of robbery qualifies as a violent felony under ACCA’s force clause is therefore
the “modified categorical approach.” See Mathis,136 S.Ct. at 2253. As noted, this requires review
of state court documents to determine which crime, with what elements, Movant was convicted of
committing. See id. at 2249.
Because the record does not include the state court documents from the four robbery
convictions, it must be presumed that Movant violated the robbery statute in the least culpable
manner, i.e., by threat. See United States v. Garcia-Montejo, 570 F. App’x 408, 413 (5th Cir. 2014).
In an abundance of caution, however, both the bodily injury and threat elements of the offense will
7

Lipscomb v. United States
Petition Appendix

13a

18-11168.610

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 8 of 14 PageID 99

be examined to determine whether they each include the use, attempted use, or threatened use of
physical force against the person of another.
B.

Physical Force
“The phrase ‘physical force’ [in § 924(e)(2)(B)(i)] means violent force—that is, force

capable of causing physical pain or injury to another person.” See Johnson v. United States, 559
U.S. 133, 140 (2010). Although the Fifth Circuit does not appear to have decided whether Texas
robbery is a violent felony under the ACCA, this issue appears to be pending in United States v.
Patton, No. 17-10942 (appeal of § 2255 case), and United States v. Burris, No. 17-10478 (direct
appeal of criminal case). District courts are split on the issue. See Joiner v. United States, 2018 WL
814021 at *2 (W.D. Tex. Feb. 9, 2018) (citing cases).
This Court has previously held that a Texas robbery offense is not a violent felony under
ACCA, regardless of whether the robbery statute is divisible or indivisible. United States v. Fennell,
No. 3:15-CR-443-L, 2016 WL 4491728 at *6 (N.D. Tex. Aug. 25, 2016), recons. denied, 2016 WL
4702557 (N.D. Tex. Sept. 8, 2016), aff’d 695 F. App’x 780 (5th Cir. 2017). Fennell relied on United
States v. Villegas–Hernandez, 468 F.3d 874 (5th Cir. 2006), in which the Fifth Circuit considered
whether the Texas assault statute, which makes it a crime to cause bodily injury, includes the use
of physical force as an element for purposes of deciding whether it qualifies as a “crime of violence”
under 18 U.S.C. § 16(a).5 The force clause in § 16(a) is almost identical to the one in ACCA.6
5

Section 16(a) defines a “crime of violence” as “an offense that has as an element the use, attempted use, or threatened
use of physical force against the person or property of another.” 18 U.S.C. § 16(a) (2000) (emphasis added). ACCA
refers only to the use of physical force against the person of another.
6

Courts analyzing issues arising under the force clause of either § 16(a) or ACCA rely on cases under both statutes, as
well as on identically worded sentencing guidelines regarding crimes of violence. See Johnson v. United States, 559
U.S. 133, 140 (2010) (relying on case law under § 16 in an analysis of the elements of a crime under the force clause
of § 924(e); United States v. Paniagua, 481 F. App’x 162, 166 (5th Cir. 2012) (relying on case law under § 924(e) in
an analysis of the elements of a crime under the force clause of § 16); United States v. Johnson, 880 F.3d 226, 234 (5th
Cir. 2018) (“precedent regarding ACCA’s definition of a violent felony is directly applicable to the Guidelines definition
8

Lipscomb v. United States
Petition Appendix

14a

18-11168.611

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 9 of 14 PageID 100

1. Villegas-Hernandez and Progeny
In Villegas-Hernandez, the Fifth Circuit began its analysis of the Texas assault statute under
the categorical approach by first explaining that “the term ‘force’ has a specific meaning and, ‘when
used in the statutory definition of a ‘crime of violence,’ is ‘synonymous with destructive or violent
force.’” Id. at 878-79 (quoting United States v. Landeros–Gonzales, 262 F.3d 424, 426 (5th Cir.
2001)). Because use of force must be “an element” of the offense, assault would satisfy the
definition of “crime of violence” in § 16(a) “only if a conviction for that offense could not be
sustained without proof of the use of ‘destructive or violent’ force.” Id. at 879. The Fifth Circuit
explained that the “bodily injury” required under the assault statute is “physical pain, illness, or any
impairment of physical condition.” Id. (quoting Tex. Penal Code § 1.07(a)(8)). The court noted that
the “bodily injury” required by the assault statute “could result from any of a number of acts,
without use of ‘destructive or violent force’, [such as] making available to the victim a poisoned
drink while reassuring him the drink is safe, or telling the victim he can safely back his car out while
knowing an approaching car driven by an independently acting third party will hit the victim.” Id.
Because the prosecution would not need to show use of physical force to convict under these
scenarios, the Fifth Circuit concluded that use of force was not a element of the offense, so assault
did not qualify as a “crime of violence” under § 16(a). Id. In so finding, the Fifth Circuit recalled
its prior en banc holdings in United States v. Vargas-Duran, 356 F.3d 598, 606 (5th Cir. 2004) (en
banc), that “‘[t]here is ... a difference between a defendant’s causation of injury and the ... use of
[physical] force,’” and that “‘the intentional causation of injury does not necessarily involve the use
of force.’” Id. at 880-81.

of a crime of violence”).
9

Lipscomb v. United States
Petition Appendix

15a

18-11168.612

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 10 of 14 PageID 101

The Fifth Circuit subsequently considered whether a California terroristic threat statute had
as an element the threatened use of physical force and was therefore a “crime of violence” for
purposes of § 2L1.2 of the Sentencing Guidelines, which is in relevant part identical to ACCA’s
force clause. See United States v. De La Rosa–Hernandez, 264 F. App’x 446, 447-49 (5th Cir.
2008). Applying the categorical approach, the court found that “[a]s in Villegas[-Hernandez], a
defendant could violate [the California statute, which criminalized threatening to commit a crime
that would result in death or great bodily injury to another person], by threatening either to poison
another or to guide someone intentionally into dangerous traffic, neither of which involve ‘force’,
as that term is defined by our court.” Id. at 449. Because it was possible to obtain a conviction
under the statute without proof of the threatened use of physical force, the Fifth Circuit found that
it was not an element of the offense, so it was not a crime of violence.7 Id.
More recently, in United States v. Rico-Mejia, 859 F.3d 318, 321 (5th Cir. 2017), the Fifth
Circuit again considered whether a “terroristic threatening” statute had the threatened use of physical
force as an element and was a crime of violence under § 2L1.2. The court found that even if the
district court correctly resorted to the modified categorical approach in analyzing the Arkansas
“terroristic threatening” statute, which made it an offense to threaten to cause death or serious bodily
injury to another person, the offense could not constitute a crime of violence under
Villegas–Hernandez and De La Rosa–Hernandez because a person could cause physical injury
without using physical force. Id. at 322-23.

7
Although a categorical approach was used in De La Rosa-Hernandez, and a modified categorical approach is used for
the Texas robbery offense, the analysis of the threat element in that case still provides guidance for the analysis of the
threat element for robbery. As discussed, the categorical or modified categorical approach is used to determine the
elements of the offense for the prior conviction. Once the elements are determined, the analysis of whether the use or
threatened use of physical force is an element of the offense is the same regardless of the approach used to determine
the elements of the offense.

10

Lipscomb v. United States
Petition Appendix

16a

18-11168.613

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

2.

Page 11 of 14 PageID 102

Castleman and Voisine

The Government argues that the Supreme Court’s decisions in United States v. Castleman,
134 S.Ct. 1405 (2014), and Voisine v. United States, 136 S.Ct. 2272 (2016), undermined the Fifth
Circuit’s holding in Villegas-Hernandez that a statutory element of causing bodily injury does not
necessarily include the use of physical force. (See doc. 12 at 11- 15, 17.) This argument has
recently been expressly rejected by the Fifth Circuit, however:
The Government responds that [Villegas-Hernandez and its progeny] have been
U.S.
, 134 S.Ct. 1405, 1414, 188
overruled by United States v. Castleman,
L.Ed.2d 426 (2014), which held that a defendant’s guilty plea to having
“intentionally or knowingly cause[d] bodily injury” to the mother of his child
constituted “the use of physical force” required for a misdemeanor crime of domestic
violence as defined in 18 U.S.C. § 921(a)(33)(A). The Government points out that
as part of the Supreme Court’s reasoning in that decision, it applied a definition of
“use of physical force” that was much broader than that described in the above cases
– one that could involve harm caused both directly and indirectly and that would
include administering poison or similar actions. Id. at 1413–15. ...
The Government’s contention regarding Castleman must be rejected. By its express
terms, Castleman’s analysis is not applicable to the physical force requirement for
a crime of violence, which “suggests a category of violent, active crimes” that have
as an element a heightened form of physical force that is narrower in scope than that
applicable in the domestic violence context. 134 S.Ct. at 1411 n.4 (noting that
“Courts of Appeals have generally held that mere offensive touching cannot
constitute the ‘physical force’ necessary to a ‘crime of violence’ ” and clarifying that
“[n]othing in today’s opinion casts doubt on these holdings, because ... ‘domestic
violence’ encompasses a range of force broader than that which constitutes
‘violence’ simpliciter”). Accordingly, Castleman does not disturb this court’s
precedent regarding the characterization of crimes of violence, and [the Arkansas
terroristic threat statute] cannot constitute a crime of violence ... because it lacks
physical force as an element.
Rico-Mejia, 859 F.3d at 322-23.8
Subsequently, in Reyes-Contreras, the Fifth Circuit noted the Government’s argument that

8
This Court also rejected this argument in Fennell, on the Government’s motion for reconsideration. 2016 WL
4702557.

11

Lipscomb v. United States
Petition Appendix

17a

18-11168.614

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 12 of 14 PageID 103

“indirect force is sufficient, [and that Castleman had] overruled Fifth Circuit precedent requiring
destructive or violent force by interpreting the use-of-force clause in 18 U.S.C. § 921(a)(33)(A)(ii)
to encompass the common-law definition, which includes offensive touching and indirect
applications of force.” 882 F.3d at 123. It also noted, however, its prior holdings in Rico-Mejia as
well as United States v. Calderon-Pena, 383 F.3d 254, 260 (5th Cir. 2004), “in which the en banc
court expressly held that an offense that can be committed without ‘any bodily contact (let alone
violent or forceful contact)’” does not have physical force as an element.” Id. As the Fifth Circuit
acknowledged,
[t]he government rightly points out that many circuits have rejected this view and have
expanded Castleman to state that indirect causation of bodily injury may warrant a [crime
of violence] enhancement. But Castleman does not on its own terms make this expansion,
and a previous panel [in Rico-Mejia] declined to interpret it as doing so, thus binding us.
Id. This court is likewise bound by Rico-Mejia’s rejection of the Government’s reliance on
Castleman.9
In conclusion, the Court finds that the Fifth Circuit’s rationale in Villegas-Hernandez for
finding that a person can cause bodily injury without the use of physical force for purposes of the
assault statute applies equally to the nearly identical bodily injury element of the robbery statute.
As noted in Fennell, “the same definition of ‘bodily injury’ applies to simple robbery, and neither
this definition nor the statutory language for assault or robbery alludes to the use of force or makes
force an implicit or explicit element of the crimes. The focus instead is on bodily injury, which does
not necessarily require the use of force.” 2016 WL 4491728 at *6. Fennell found that regardless
of whether the robbery statute is divisible or indivisible, it “is broad enough to entail even the
slightest use of force that results in relatively minor physical contacts and injuries, and the degree

9

The Government filed a motion for rehearing en banc in Reyes-Contreras on April 5, 2018.
12

Lipscomb v. United States
Petition Appendix

18a

18-11168.615

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 13 of 14 PageID 104

or character of the physical force exerted is irrelevant,” so “it covers conduct that does not involve
the type of ‘violent force’ contemplated by the ACCA.” Id. Because there is a set of facts that
would support a conviction under the bodily injury element without proof of the use of force, and
the use of force is not a fact necessary to support a conviction under that element, the use of force
is not an element of the Texas robbery statute. See id.
As for the threat element, the Fifth Circuit applied its rationale in Villegas-Hernandez to find
that a person can threaten to cause bodily injury without threatening the use of physical force for
purposes of the terroristic threat statutes at issue in De La Rosa-Hernandez and Rico-Mejia. Its
reasoning applies equally to the similar threat element of the Texas robbery statute.10 Because there
is also a set of facts that would support a conviction under the threat element without proof of the
threatened use of force, and the threatened use of force is not a fact necessary to support a conviction
under that element, the threatened use of force is also not an element of Texas robbery.
Since neither the use of force nor the threatened use of force is an element of the Texas
robbery statute, a conviction under that statute does not qualify as a violent felony under ACCA’s
force clause.11 Because Texas robbery is no longer a violent felony after Johnson, the enhancement
of Movant’s sentence under ACCA based in part on his four robbery convictions does not survive.12

10

The threat elements of the California and Arkansas terroristic threat statutes are similar to the threat element of the
Texas robbery statute. See De La Rosa-Hernandez, 264 F. App’x at 446 (quoting Cal. Penal Code § 422); Rico-Mejia,
859 F.3d at 322 (quoting Ark. Code Ann. § 5-13-301(a)(1)).

11

The result is the same under the categorical approach, which requires that courts “focus solely on whether the elements
of the crime of conviction include the use, attempted use, or threatened use of physical force against the person of
another.” See Lerma, 877 F.3d at 630. The relevant elements of robbery under the categorical approach are causing
bodily injury and threatening to cause bodily injury. As discussed, neither element has the use or threatened use of
physical force, so robbery is not a violent felony under the force clause.

12

In a case on direct appellate review, the Fifth Circuit recently reconsidered prior case law and held that the Texas
burglary statute is indivisible, it is not generic burglary under § 924(e)(2)(B)(ii), and a Texas burglary conviction cannot
be the predicate for ACCA enhancement. See United States v. Herrold, 883 F.3d 517, 537 (5th Cir. 2018). Because
Movant’s robbery offenses are not violent felonies, he no longer has three or more earlier qualifying convictions under
13

Lipscomb v. United States
Petition Appendix

19a

18-11168.616

Case 3:16-cv-01500-M-BH Document 17 Filed 06/18/18

Page 14 of 14 PageID 105

V. RECOMMENDATION
The motion to vacate, set aside, or correct sentence pursuant to 28 U.S.C. § 2255 should be
GRANTED, the sentence should be VACATED, and Movant should be re-sentenced.
SO RECOMMENDED this 18th day of June, 2018.

___________________________________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of these findings, conclusions and recommendation shall be served on all parties in
the manner provided by law. Any party who objects to any part of these findings, conclusions and
recommendation must file specific written objections within 14 days after being served with a copy.
See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). In order to be specific, an objection must identify
the specific finding or recommendation to which objection is made, state the basis for the objection,
and specify the place in the magistrate judge’s findings, conclusions and recommendation where the
disputed determination is found. An objection that merely incorporates by reference or refers to the
briefing before the magistrate judge is not specific. Failure to file specific written objections will
bar the aggrieved party from appealing the factual findings and legal conclusions of the magistrate
judge that are accepted or adopted by the district court, except upon grounds of plain error. See
Douglass v. United Servs. Automobile Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996).

___________________________________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

ACCA. It is therefore unnecessary to reach the issue of whether burglary is a violent felony under the ACCA.
14

Lipscomb v. United States
Petition Appendix

20a

18-11168.617

Case 3:16-cv-01500-M-BH Document 21 Filed 07/05/18

Page 1 of 1 PageID 124

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
EDDIE LAMONT LIPSCOMB,
Movant,
vs.

)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
Respondent.

No. 3:16-CV-1500-M
No. 3:07-CR-357-M

ORDER ACCEPTING FINDINGS AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
After reviewing the objections to the Findings, Conclusions, and Recommendation of the
United States Magistrate Judge and conducting a de novo review of those parts of the Findings and
Conclusions to which objections have been made, I am of the opinion that the Findings and
Conclusions of the Magistrate Judge are correct and they are accepted as the Findings and
Conclusions of the Court.
For the reasons stated in the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge, the motion to vacate, set aside or correct sentence filed under 28 U.S.C.
§ 2255 will be GRANTED, and the movant’s sentence in Cause No. 3:07-CR-357-M will be
corrected by separate judgment, on the papers only, Defendant having waived his right to appear.
This order shall also be docketed in the criminal case.
SIGNED this 5th day of July, 2018.

_________________________________
BARBARA M. G. LYNN
CHIEF JUDGE

Lipscomb v. United States
Petition Appendix

21a

18-11168.636

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

Page 1 of 7 PageID 465

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§

AMENDED JUDGMENT IN A CRIMINAL
CASE
Pursuant to Order Granting Defendant’s
2255 Motion on July 5, 2018.

§
§
§
§
§
§

v.
EDDIE LAMONT LIPSCOMB
Defendant.

Case Number: 3:07-CR-00357-M(1)
USM Number: 37236-177
Federal Public Defender
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment, file don November 28, 2007

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:922(g)(1) and 924(e)(1) Felon In Possession Of A Firearm

Offense Ended

Count

07/05/2018

1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

July 5, 2018* (Date of Order granting § 2255 motion.)
Date of Imposition of Judgment

Signature of Judge

BARBARA M. G. LYNN
CHIEF UNITED STATES DISTRICT JUDGE
Name and Title of Judge

July 6, 2018
Date

Lipscomb v. United States
Petition Appendix

22a

18-11168.218

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 466

Judgment -- Page 2 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
One-Hundred and Twenty (120) Months.
This sentence shall be served concurrently with any sentence imposed by Dallas County Criminal District Court 7 in Case No.
F-0750120.

☒ The court makes the following recommendations to the Bureau of Prisons:
The Court directs the BOP to immediately recalculate the defendant’s corrected sentence (120 months), as it appears he has
fully served his sentence of imprisonment.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

a.m.

☐

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Lipscomb v. United States
Petition Appendix

23a

18-11168.219

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 467

Judgment -- Page 3 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Three (3) Years.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

4.

☐

5.

☒
☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

6.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Lipscomb v. United States
Petition Appendix

24a

18-11168.220

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 468

Judgment -- Page 4 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant’s
compliance with such notification requirement.

Lipscomb v. United States
Petition Appendix

25a

18-11168.221

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 469

Judgment -- Page 5 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide to the U.S. Probation Officer any requested financial information.
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office for Treatment of narcotic, drug, or alcohol dependency, which will include
testing for the detection of substance use or abuse. The defendant shall abstain from the use of
alcohol and/or all other intoxicants during and after completion of treatment. The defendant shall
contribute to the costs of services rendered (copayment) at a rate of at least $10 per month.
The defendant shall participate in workforce development programs and services involving
activities relating to occupational and career development, including but not limited to
assessments and testing, educational instruction training classes, career guidance, counseling, case
management, and job search and retention services, as directed by the U.S. Probation Officer until
successfully discharged from the program.

Lipscomb v. United States
Petition Appendix

26a

18-11168.222

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 470

Judgment -- Page 6 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Fine
Assessment
$100.00
$.00
TOTALS

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☒ the interest requirement is waived for the
☐ fine
☒ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Lipscomb v. United States
Petition Appendix

27a

18-11168.223

Case 3:07-cr-00357-M Document 71 Filed 07/09/18

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 471

Judgment -- Page 7 of 7

EDDIE LAMONT LIPSCOMB
3:07-CR-00357-M(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

due immediately, balance due

☐ Lump sum payments of $
☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which
shall be paid immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.

☐
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

Lipscomb v. United States
Petition Appendix

28a

18-11168.224

Case: 09-10240 Document: 00511232986 Page: 1 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 1 of 33 PageID 408

REVISED SEPTEMBER 14, 2010
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED
September 13, 2010

No. 09-10240

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
i]

v.

' , : , .. .l'
• ··J

EDDIE LAMONT LIPSCOMB,
Defendant - Appellant

J.
/

~.:.·
:-=-.._\.>)

Appeal from the United States District Court
for the Northern District of Texas

Before KING, JOLLY, and STEWART, Circuit Judges.
E. GRADY JOLLY, Circuit Judge:
Eddie Lamont Lipscomb appeals his sentence enhancement under
U.S.S.G. § 4Bl.l, arguing that his instant conviction for possessing a firearm as
a felon under 18 U.S.C. § 922(g) does not qualify as a crime of violence. Because
Lipscomb pleaded guilty to a single-count indictment expressly charging him
with possessing a sawed-off shotgun, a crime of violence, we affirm.
I.

Lipscomb pleaded guilty to a single-count indictment charging him with
possessing a firearm as a felon, see 18 U .S.C. § 922(g), and charging him as an
armed career criminal, see§ 924(e). The indictment described the weapon as "a

18-11168.161
Lipscomb v. United States
Petition Appendix

29a

Case: 09-10240 Document: 00511232986 Page: 2 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 2 of 33 PageID 409

No. 09-10240
Harrington and Richardson, model 88, 20 gauge shotgun, ... as modified having
a barrel of less than 18 inches in length, and overall length of less than 26
inches, a weapon commonly known as a 'sawed-off shotgun." 1 Based on this plea
of guilty to possessing a sawed-off shotgun as a felon and his prior offenses, his
presentence report classified him as a career offender under§ 4Bl.1, subjecting
him to an enhanced sentence totaling 292 to 365 months of imprisonment and
three to five years of supervised release. Lipscomb objected. In addition to
moving for a variance, Lipscomb argued that the § 4Bl.1 career offender
enhancement did not apply to him, because the instant offense was not a crime
of violence. Specifically, he argued that the categorical method as set forth in

Taylor v. United States, 495 U.S. 575 (1990), and progeny prevented the
sentencing court from considering how the defendant committed the crime.
Although the gun was, as alleged in the indictment, a sawed-off shotgun, his
conviction was not for a crime of violence, he argues, because § 922(g) has no
element requiring proof of a specific type of gun. Furthermore, the district court
improperly relied on testimony from a police officer who described the weapon
as a sawed-off shotgun.
The district court concluded that the § 922(g) conviction was a crime of
violence and that the career offender provisions of§ 4B 1.1 applied. The district
court did, however, grant a variance, sentencing Lipscomb to 240 months in

1

The indictment read:

Felon in Possession of a Firearm
(Violation of 18 U.S.C. § 922(g)(l) and 924(e)(l))
On or about March 20, 2007, in the Dallas Division of the Northern
District of Texas, the defendant, Eddie Lamont Lipscomb, having being [sic]
convicted of a crime punishable by imprisonment for a term exceeding one year,
did knowingly and unlawfully possess in and affecting interstate and foreign
commerce a firearm, to wit: a Harrington and Richardson, model 88, 20 gauge
shotgun, bearing serial number BA490014, as modified having a barrel of less
than 18 inches in length, and overall length of less than 26 inches, a weapon
commonly known as a "sawed-off' shotgun.
In violation of 18 U.S.C. §§ 922(g)(l) and 924(e)(l).
2

18-11168.162
Lipscomb v. United States
Petition Appendix

30a

Case: 09-10240 Document: 00511232986 Page: 3 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 3 of 33 PageID 410

No. 09-10240
prison and five years of supervised release. When asked by the government
whether it would give the same sentence had § 4B 1.1 not applied, the district
court replied that it would want to reconsider its sentence if the enhancement
did not apply. Lipscomb timely appealed.

II.
"Characterizing an offense as a crime of violence is a purely legal
determination," which we review de novo. United States v. Cisneros-Gutierrez,
517 F.3d 751, 764 (5th Cir. 2008); United States v. Guevara, 408 F.3d 252, 261
n.10 (5th Cir. 2005).
Turning to this case, the Sentencing Guidelines call for an enhanced
sentence for defendants who, like the defendant here, (1) are at least eighteen
years old at the time of the instant conviction, (2) are currently being sentenced
for a crime of violence or a controlled substance offense, and (3) have at least
two prior convictions for either crimes of violence or controlled substance
offenses. U.S.S.G. § 4Bl.l(a). Lipscomb acknowledges that he meets criteria (1)
and (3). The question in this case is whether Lipscomb's instant conviction is a
crime of violence.
For our purposes today, a crime is a crime of violence if it is an "offense
under federal ... law, punishable by imprisonment for a term exceeding one
year, that ... otherwise involves conduct that presents a serious potential risk
of physical injury to another." § 4Bl.2(a)(2). 2 To determine whether a crime is
a crime of violence, we consider only "conduct 'set forth in the count of which the

2

Section 4Bl.2(a) provides, in full:
The term "crime of violence" means any offense under federal or state law,
punishable by imprisonment for a term exceeding one year, that(1) has as an element the use, attempted use, or threatened use of physical force
against the person of another, or
(2) is burglary of a dwelling, arson, or extortion, involves use of explosives, or
otherwise involves conduct that presents a serious potential risk of physical
injury to another.

3

18-11168.163
Lipscomb v. United States
Petition Appendix

31a

Case: 09-10240 Document: 00511232986 Page: 4 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 4 of 33 PageID 411

No. 09-10240
defendant was convicted,"' but may not consider any other evidence to determine
the conduct underlying the instant offense. United States v. Fitzhugh, 954 F.2d
253, 254 (5th Cir. 1992) (quoting U.S.S.G. § 4Bl.2 Application Note 1).
Therefore, the district court erred by considering testimony as to the weapon's
characteristics to be relevant, but the error was harmless. As noted above,
Lipscomb's single-count indictment, which the district court could consider,
alleges that he possessed a sawed-off shotgun. The only remaining question is
whether possessing such a weapon, "by its nature, presented a serious potential
risk of physical injury." United States v. Insaulgarat, 378 F.3d 456, 467 (5th Cir.
2004). We think that the Sentencing Commission's commentary to § 4Bl.2
answers that for us. Stinson v. United States, 508 U.S. 36, 44-45 (1993) (holding
that commentary to the guidelines is "treated as an agency's interpretation of its
own legislative rule"). 3 "Unlawfully possessing a firearm described in 26 U.S.C.
§ 5845(a) (i.e., a sawed-off shotgun ... ) is a crime of violence." U.S.S.G. § 4Bl.2
Application Note 1. 4

Accordingly, as per the specific allegations of the

indictment and his plea of guilty to those charges, Lipscomb's§ 922(g) conviction
is for a crime of violence.
Lipscomb argues otherwise, asserting that applying the categorical
analysis his conviction under§ 922(g) only required that the government prove
that he possessed a gun-nothing more. We reject Lipscomb's argument that we
must apply the categorical approach crafted by the Supreme Court in Taylor and
its progeny. 5
3

Such a rule would require the sentencing court to use the

Neither party challenges the Sentencing Commission's classification of the offense.

4
Specifically, the weapon must be "a weapon made from a shotgun if such weapon as
modified has an overall length of less than 26 inches or a barrel or barrels of less than 18
inches in length," which are the characteristics alleged in the indictment. 26 U.S.C. §

5845(a)(2).
6

Today we are addressing a sentence under the Guidelines. We have, in some cases,
used the Armed Career Criminal Act case law as a "guide" to determine a crime of violence
4

18-11168.164
Lipscomb v. United States
Petition Appendix

32a

Case: 09-10240 Document: 00511232986 Page: 5 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 5 of 33 PageID 412

No. 09-10240
indictment only to determine the statutory phrase that is the basis of conviction.
Thus, he argues, his conviction is only for possessing a "firearm," as the statute
proscribes; his conviction is not for possessing a sawed-off shotgun, as the
indictment's language charges. This argument ignores the fact that Taylor and
its progeny were decided under the Armed Career Criminal Act and did not
involve

the

application

of-or

commentary at issue here.

even

mention-the

specific

Guidelines

The commentary, which applies in this case,

specifically treats unlawful possession of a firearm by a felon as a crime of
violence when the weapon is a sawed-off shotgun. Id. Lipscomb's proposed
standard, if applied here, would render the commentary meaningless for§ 922(g)
offenses. We do not think the Sentencing Commission intended its commentary
to have such an effect. Moreover, had the Sentencing Commission intended the

under§ 4Bl.2, but never in a situation when that case law appeared to be inconsistent with
the Sentencing Commission's binding commentary. See, e.g., United States v. Mohr, 554 F.3d
604, 608-10 (5th Cir. 2009) (using Begay v. United States, 555 U.S. 137 (2008), to interpret the
kinds of crimes that qualified under the "otherwise" clause). Our rule limiting district courts
to the conduct charged in the indictment comes from the Sentencing Commission's
commentary, not the Armed Career Criminal Act cases. Fitzhugh, 954 F.2d at 254.
Lipscomb also invokes Guevara, in which the court stated that the sentencing court
could not consider "anything beyond what is present in the statute or alleged in the
indictment, elements as to which, to convict, the jury must have found evidence beyond a
reasonable doubt in any event" to find that the instant offense is a crime of violence under §
4Bl.2(a)(2). 408 F.3d at 262 (citing United States v. Calderon-Pena, 383 F.3d 254 (5th Cir.
2004) (en bane) (per curiam)). That statement was merely dicta. The issue in Guevara was
whether a pre-Booker crime-of-violence determination under § 4Bl.2(a) violated the
defendant's Sixth Amendment rights by allowing the judge, not the jury, to find facts that
enhanced his sentence. It is true that the court said neither§ 4Bl.2(a) (1) or (2) would cause
Sixth Amendment problems, but only its analysis of 4Bl.2(a)(l) was necessary to the holding.
The court considered whether the crime was a crime of violence only under § 4Bl.2(a)(l),
"express[ing] no opinion whether it would qualify under§ 4Bl.2(a)(2)." Id. at 259. Therefore,
Guevara's comment on§ 4Bl.2(a)(2) was unnecessary to the case's disposition. Calderon-Pena,
which Guevara cited, involved a different guideline, § 2Ll.2, which considers only the elements
of unenumerated offenses. It has neither a residual clause, which is at issue here, nor
supplemental commentary. See U.S.S.G. § 2Ll.2 Application Note 1. It is, therefore, not
helpful in deciding the issue before us. Parenthetically, we also note that Guevara dealt with
a conviction in which the jury was the fact finder, whereas here we are dealing with facts
admitted through a plea of guilty.

5

18-11168.165
Lipscomb v. United States
Petition Appendix

33a

Case: 09-10240 Document: 00511232986 Page: 6 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 6 of 33 PageID 413

No. 09-10240
sentencing court to be bound by the statute of conviction, its reference in
Application Note 1 to the "conduct set forth (i.e., expressly charged) in the count
of which the defendant was convicted" would be superfluous. See id. (emphasis
added). Thus, applying the commentary of§ 4Bl.2, as we must, we hold that
this conviction, resulting from a plea to an indictment count that specifically
charged possession of a sawed-off shotgun as a felon, is for a crime of violence.

III.
To recap, we hold that for the purpose of§ 4Bl.2, a conviction is for a
crime of violence when the defendant pleads guilty to an indictment count that
alleges conduct that presents a serious potential risk of injury to another.
Lipscomb, in pleading guilty to an indictment charging him with violating 18
U.S.C. § 922(g) by possessing a sawed-off shotgun-a crime of violence, according
to the Guidelines commentary-did just that. The judgment of the district court
lS

AFFIRMED.

6

18-11168.166
Lipscomb v. United States
Petition Appendix

34a

Case: 09-10240 Document: 00511232986 Page: 7 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 7 of 33 PageID 414

No. 09-10240
KING, Circuit Judge, concurring in the judgment:
I agree with Judge Jolly that Lipscomb's offense of conviction (his instant
offense)-being a felon in possession, in violation of 18 U.S.C. § 922(g)(l)-was
a "crime of violence," as defined by U.S.S.G. § 4Bl.2(a)(2). Accordingly, I concur
in the judgment affirming his sentence. However, I write separately for two
reasons.

First, I write to clarify my agreement with Judge Jolly that an

elements-based categorical approach is inappropriate here. Second, I explain my
disagreement with my colleagues' determination that the district court erred
when it made a post-plea factual finding to determine that the gun Lipscomb
possessed was a sawed-off shotgun as described in 26 U.S.C. § 5845(a). 1 Unlike
my colleagues, I conclude that the district court committed no error in making
that determination through a factual finding at sentencing.
In reaching his conclusion that a felon-in-possession conviction is not a
crime of violence under § 4Bl.2(a)(2), Judge Stewart applies the categorical
approach outlined in Taylor v. United States, 495 U.S. 575 (1990), and its
progeny. Under that approach, a sentencing court may "look only to the fact of
conviction and the statutory definition of the ... offense," id. at 602, except that,
"whenever a statute provides a list of alternative methods of commission ... [,]
we may look to charging papers to see which of the various statutory
alternatives

are

involved

in

the

particular

case,"

United

States

v.

Calderon-Pena, 383 F.3d 254, 258 (5th Cir. 2004) (en bane) (per curiam). In
making this determination where the conviction was reached by plea, "we may
consider the statement of factual basis for the charge, a transcript of the plea
colloquy or written plea agreement, or a record of comparable findings of fact

1

This category of weapon is defined to include "(1) a shotgun having a barrel or barrels
of less than 18 inches in length; [and] (2) a weapon made from a shotgun if such weapon as
modified has an overall length of less than 26 inches or a barrel or barrels of less than 18
inches in length." 26 U.S.C. § 5845(a)(l)-(2). The weapon Lipscomb possessed satisfied these
criteria; the issue is whether the district court properly determined that fact.

7

18-11168.167
Lipscomb v. United States
Petition Appendix

35a

Case: 09-10240 Document: 00511232986 Page: 8 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 8 of 33 PageID 415

No. 09-10240
adopted by the defendant upon entering the plea regarding the ... offense[]."

United States v. Mohr, 554 F.3d 604, 607 (5th Cir. 2009) (citing Shepard v.
United States, 544 U.S. 13, 20 (2005)). Because 18 U.S.C. § 922(g)(l) forbids a
felon such as Lipscomb from possessing any firearm, there is no "statutory
alternative[]" forbidding only the possession of a sawed-off shotgun as described
in 26 U .S.C. § 5845(a)(l)-(2). Accordingly, under Judge Stewart's view, there is
no element of a§ 922(g)(l) offense that presents a serious risk of physical injury
to another, and being a felon in possession is thus not a crime of violence.
However, Judge Stewart's categorical approach cannot be the correct
result because it is plainly inconsistent with the Application Notes following

§ 4Bl.2.

Those Application Notes unequivocally state that "[u]nlawfully

possessing a firearm described in 26 U.S.C. § 5845(a) (e.g., a sawed-off shotgun

... ) is a 'crime of violence,"' U.S.S.G. § 4Bl.2 cmt. n.1 (emphasis added), and
that the term "does not include the offense of unlawful possession of a firearm
by a felon, unless the possession was of a firearm described in 26 U.S.C.
§ 5845(a)," id. (emphasis added).

This commentary is authoritative on the

subject. Stinson v. United States, 508 U.S. 36, 42-43 (1993); United States v.

Williams, 610 F.3d 271, 293 n.29 (5th Cir. 2010) ("Commentary contained in
U.S.S.G. application notes is authoritative unless it violates the Constitution or
a federal statute, or is inconsistent with, or a plainly erroneous reading of, that
guideline." (internal quotation marks omitted)). And for this commentary to
have any meaningful effect, 2 it must be possible in at least some instances for a
2

Judge Stewart indicates that there are state crimes expressly forbidding possession
by felons of sawed-off shotguns of the dimensions described in 26 U.S.C. § 5845(a)(l)-(2), and
that these are the only crimes of violence contemplated by the Application Notes to § 4Bl.2.
This token gesture gives no effect to the intentions of the drafters, who recognized that
"Congress has determined that those firearms described in 26 U.S.C. § 5845(a) are inherently
dangerous and when possessed unlawfully, serve only violent purposes." U.S.S.G. supp. app.
C, amend. 67 4, at 134. The drafters approved of the decisions of "[a] number of courts [that]
held that possession of certain of these firearms, such as a sawed-off shotgun, is a 'crime of
violence' due to the serious potential risk of physical injury to another person." Id. The

8

18-11168.168
Lipscomb v. United States
Petition Appendix

36a

Case: 09-10240 Document: 00511232986 Page: 9 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 9 of 33 PageID 416

No. 09-10240
felon-in-possession conviction to constitute a crime of violence.

But Judge

Stewart's approach precludes that result; following his method would mean that
a felon-in-possession conviction under 18 U.S.C. § 922(g)(l)-prior or
instant-could never be classified as a crime of violence, no matter whether the
gun

possessed

was

a

sawed-off shotgun

as

described

in

26

U.S.C.

§ 5845(a)(l)-(2).
Nor is Judge Stewart's approach compelled by our precedent.

In

Calderon-Pena, we addressed whether a prior conviction for child endangerment
under Texas law was a "crime of violence" under U.S.S.G. § 2Ll.2(b) by
"'ha[ving] as an element the use, attempted use, or threatened use of physical
force against the person of another."' 383 F.3d at 256 (quoting U.S.S.G. § 2Ll.2
cmt. n.l(B)(ii) (2001)). 3 We reasoned that the "as an element" language required
us to "look [solely] to the elements of the crime, not to the defendant's actual
conduct in committing it." Id. at 257. Although the manner and means of
Calderon-Pena's offense involved the use of physical force, we concluded that
none of the statutory alternatives contained within the Texas definition of child
endangerment had as an element the required use, attempted use, or threatened
use of physical force. Id. at 260. In reaching this conclusion, we specifically
compared the language at issue in § 2Ll.2 to that in§ 4Bl.2(a). See id. at 258
n.6.

We indicated that an elements-based approach was appropriate for

§ 4Bl.2(a)(l) because it used the language "as an element," while the manner
and means of committing an offense could properly be considered under

drafters' obvious goal in amending the Application Notes is undermined by the strained
interpretation of§ 4Bl.2(a)(2) that would find possession of a sawed-off shotgun to be a crime
of violence only where it is a prior state conviction.
3

The language in the current version of§ 2Ll.2 remains unchanged , but it is now
located in Application Note l(b)(iii).

9

18-11168.169
Lipscomb v. United States
Petition Appendix

37a

Case: 09-10240 Document: 00511232986 Page: 10 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 10 of 33 PageID 417

No. 09-10240
§ 4Bl.2(a)(2) because the latter provision used the phrase "involves conduct."

Id. 4
We applied Calderon-Pena's discussion of § 4B l .2(a)(l) to an offense of
conviction in United States v. Guevara, 408 F.3d 252 (5th Cir. 2005).

We

concluded that Guevara's offense of threatening to use a weapon of mass
destruction, in violation of 18 U.S.C. § 2332a, was a crime of violence under
§ 4B 1.2(a)(l) because it had, as an element, the threatened use of physical force.

Id. at 259-60. We expressly declined to determine whether that instant offense
would have qualified as a crime of violence under§ 4Bl.2(a)(2). See id. at 259
("Because Guevara's conviction qualifies as a 'crime of violence' under
§ 4Bl.2(a)(l), we express no opinion as to whether it would qualify under
§ 4Bl.2(a)(2)."); id. at 260 n.6 ("We decline to engage in the more complicated
analysis under§ 4Bl.2(a)(2), which under the 'otherwise clause' would require
us to consider risk posed by hypothetical conduct."). As Judge Jolly notes, the

Guevara court also indicated in dicta that a categorical approach would similarly
be appropriate when applying§ 4Bl.2(a)(2) to instant offenses. Id. at 261-62. 5

4

The relevant discussion consisted of the following:

The criminal law has traditionally distinguished between the elements of an
offense and the manner and means of committing an offense in a given case.
Indeed, the Guidelines themselves recognize such a distinction. Compare
U.S.S.G. § 4Bl.2(a)(l) (2003) (using "as an element" language), with id.
§ 4Bl.2(a)(2) (using the phrase "involves conduct"). The distinction is also
recognized in the commentary to§ 4Bl.2. See id. § 4Bl.2, cmt. n.1 (defining a
"crime of violence" as an offense that either "has as an element the use,
attempted use, or threatened use of physical force against the person of
another"; or where the "conduct set forth . . . in the count of which the
defendant was convicted ... by its nature, presented a serious potential risk of
physical injury to another").

Calderon-Pena, 383 F.3d at 258 n.6.
We are free to disregard dicta from prior panel opm1ons when we find it
unpersuasive. See United States v. Gieger, 190 F.;3d 661, 665 (5th Cir. 1999) ("We find this
dicta unpersuasive and contrary to section 3Al.l's text and we choose not to follow it."). As
I explain below, I agree with Judge Jolly that we should do exactly that with regard to this

10

18-11168.170
Lipscomb v. United States
Petition Appendix

38a

Case: 09-10240 Document: 00511232986 Page: 11

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Date Filed: 09/14/2010

Page 11 of 33 PageID 418

No. 09-10240
In my view, district courts are not limited to a strict, elements-based
categorical approach when applying § 4Bl.2(a)(2) to an instant offense. The
relevant text refers to a defendant's "conduct" rather than to any particular
"element" of the crime. Compare U.S.S.G. § 4Bl.2(a)(l) ("has as an element ... ")

with U.S.S.G. § 4Bl.2(a)(2) ("involves conduct ... "). I therefore agree with the
Calderon-Pena court's discussion that this is a meaningful distinction. Thus, at
a minimum, district courts may consider the sources of information deemed
acceptable under the modified categorical approach articulated in Shepard. 6 In
that case, the Supreme Court held that guilty pleas may establish predicate
offenses under the Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e), 7 and
indicated that a sentencing court was free to look to the transcript of plea
colloquy or written plea agreement in determining "whether the plea had
'necessarily' rested on the fact" qualifying the conviction as a predicate offense.

Shepard, 544 U.S. at 21; see also Taylor, 495 U.S. at 602 (indicating that a
conviction could be narrowed "where a jury was actually required to find all the
elements" qualifying the conviction as a predicate offense). Following Shepard,

dicta from Guevara.
6

District courts are, of course, limited to an elements-based categorical approach in
determining whether a prior offense of conviction is a crime of violence under § 4Bl.2(a)(l).
United States v. Garcia, 470 F.3d 1143, 1147 (5th Cir. 2006). They are limited to the modified
categorical approach when addressing whether a prior offense of conviction is a crime of
violence under§ 4Bl.2(a)(2). United States v. Rodriguez-Jaimes, 481 F.3d 283, 286 (5th Cir.
2007). In determining whether an instant offense of conviction is a crime of violence under
§ 4Bl.2(a)(l), the Guevara court indicated that a modified categorical approach was
appropriate, but it based its decision solely on the elements of the offense at issue. Guevara,
408 F.3d at 259 ("We need not look to the indictment, the facts, or anything other than the
statute to determine whether § 2332a contains an element that qualifies Guevara's crime as
a crime of violence under the guidelines.").
7

"'We have previously applied our holdings under the residual clause of the ACCA to
analyze the definition of crimes of violence under § 4Bl.2, and vice versa."' United States v.
Hughes, 602 F.3d 669, 673 n.l (5th Cir. 2010) (quoting United States v. Mohr, 554 F.3d 604,
609 n.4 (5th Cir. 2009)).

11

18-11168.171
Lipscomb v. United States
Petition Appendix

39a

Case: 09-10240 Document: 00511232986 Page: 12 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 12 of 33 PageID 419

No. 09-10240
then, we should at least determine whether the district court could properly
consider anything that "necessarily" established that Lipscomb possessed a
sawed-off shotgun as described in 26 U.S.C. § 5845(a)(l)-(2).
Judge Jolly concludes that Lipscomb, by pleading guilty to the indictment,
also pleaded guilty to the dimensions of the firearm at issue. I agree with the
general proposition that a defendant's plea may establish, for purposes of
§ 4Bl.2(a)(2), the fact that a firearm is of the requisite length under 26 U.S.C.

§ 5845(a)(l)-(2).

However, I disagree with Judge Jolly's conclusion that

Lipscomb's plea sufficiently established that fact.
There is no dispute that the indictment specifically charged Lipscomb with
possessing a weapon with the characteristics of a sawed-off shotgun as described
in 26 U.S.C. § 5845(a)(l)-(2). 8

Nevertheless, at no point did Lipscomb

specifically admit that the firearm he possessed had the characteristics that
would bring it within the description contained in 26 U .S.C. § 5845(a)(l)-(2). He
submitted a factual resume that admitted to the model, gauge, and serial
number, but did not mention the length of the firearm or its barrel. At the plea
colloquy, Lipscomb waived his right to have the indictment read to him, and
those details were not read. The district court then asked Lipscomb whether he
understood that he was "charged with one count of being a felon in possession
of a firearm; that is, a model 88 20 gauge shotgun commonly known as a sawedoff shotgun?" Lipscomb replied affirmatively, but this exchange did not involve
any discussion oflength-the characteristic that can bring a firearm within the
ambit of 26 U.S.C. § 5845(a)(l)-(2). Lipscomb also admitted to each of the
elements of 18 U .S.C. § 922(g)(l), but, again, the length of the firearm and its

8

The indictment charged that Lipscomb possessed "a Harrington and Richardson,
model 88, 20 gauge shotgun bearing serial number BA490014, as modified having a barrel of
less than 18 inches in length, and overall length of less than 26 inches, a weapon commonly
known as a 'sawed-off' shotgun."

12

18-11168.172
Lipscomb v. United States
Petition Appendix

40a

Case: 09-10240 Document: 00511232986 Page: 13 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 13 of 33 PageID 420

No. 09-10240
barrel were not mentioned.

As a result, at sentencing, the district court

expressly declined to find that the length aspect had been established through
Lipscomb's plea, instead opting to make that determination by means of a
factual finding based on testimony presented at sentencing. 9 It is for this reason
that I cannot agree with Judge Jolly's conclusion that Lipscomb pleaded guilty
to the length of the firearm when he pleaded guilty to the indictment. 10
While I agree with Judge Jolly's conclusion that Lipscomb's sentence
should be affirmed, I disagree with his view that the district court committed
error (albeit harmless) by determining the length of _the firearm through a
factual finding at sentencing. Instead, I conclude that the district court was
empowered to make the post-conviction factual finding that the firearm
Lipscomb possessed was of the requisite length under 26 U.S.C. § 5845(a)(l)-(2).
"Elements of a crime must be charged in an indictment and proved to a jury
beyond a reasonable doubt. Sentencing factors, on the other hand, can be proved
to a judge at sentencing by a preponderance of the evidence." United States v.

O'Brien, 130 S. Ct. 2169, 2174 (2010) (citations omitted); see also United States

9

The district court ruled as follows:

I think it is a close question as to whether Mr. Lipscomb admitted the length of
the weapon in that plea colloquy. I didn't ask him specifically the length of the
weapon. This could be defined as a sawed-off shotgun in lay terms if it was
shorter than as originally manufactured. So I think that is a close question.
But I don't have to determine that, because I am determining that I may and
did receive evidence today before sentencing the defendant, and that I may
consider that in determining what sentence is appropriate. Therefore, I find as
a factual matter that it was a sawed-off shotgun. It is a sawed-off shotgun of
the dimensions specified in the indictment, and that that means that it is a
crime of violence.
10

An alternative possibility suggested but not directly addressed by Judge Jolly's
opinion is a holding that Lipscomb's act of pleading guilty to the indictment necessarily
entailed pleading guilty to all of the facts in the indictment, including the length of the
firearm. Our circuit has yet to hold that pleading guilty to an indictment entails an admission
of all the facts contained in the indictment, see United States v. Morales-Martinez, 496 F.3d
356, 359 (5th Cir. 2007), and, as I explain below, we need not do so here.

13

18-11168.173
Lipscomb v. United States
Petition Appendix

41a

Case: 09-10240 Document: 00511232986 Page: 14 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 14 of 33 PageID 421

No. 09-10240

v. Mares, 402 F.3d 511, 519 (5th Cir. 2005) ("The sentencing judge is entitled to
find by a preponderance of the evidence all the facts relevant to the
determination of a Guideline sentencing range . . . . "). Here, the panel has
unanimously rejected the proposition that the characteristics set out in 26 U.S.C.
§ 5845(a)(l)-(2) are elements of 18 U.S.C. § 922(g)(l). As a general matter, then,

there was no obstacle to the district court making a factual finding as to the
length of the firearm Lipscomb possessed. II
Nor would we be the first circuit to permit such fact-finding under

§ 4Bl.2(a)(2). In United States v. Riggans, the Tenth Circuit was faced with an
instant offense of bank larceny. 254 F.3d 1200, 1203 (10th Cir. 2001). The
defendant had committed the crime in a manner that "present[ed] a serious
potential risk of physical injury to others," but he argued "that the district court
was required to evaluate bank larceny only in the abstract." Id. The district
court rejected that contention and considered the underlying facts of the offense.

Id. On appeal, the Tenth Circuit affirmed, concluding that the justification for
the categorical approach-avoiding ad hoc mini-trials over past convictions-was
absent "'when the court is examining the conduct of the defendant in the instant
offense."' Id. at 1204 (quoting United States v. Walker, 930 F.2d 789, 794 (10th
Cir. 1991), superseded on other grounds as stated in Stinson v. United States, 508
U.S. 36, 39 n.1 (1993)).

Accordingly, the district court had not erred in

11

I note that the Application Notes to§ 4Bl.2 require that conduct elevating an offense
to a crime of violence must be charged in the indictment. See U.S.S.G. § 4Bl.2 cmt. n.1
("Other offenses are included as 'crimes of violence' if ... the conduct set forth (i.e., expressly
charged) in the count of which the defendant was convicted ... , by its nature, presented a
serious potential risk of physical injury to another." (emphasis added)); accord United States
v. Charles, 301 F.3d 309, 313 (5th Cir. 2002) (en bane) ("[l]n determining whether an offense
is a crime of violence under§ 4Bl.2 or§ 4Bl.1, we can consider only conduct set forth in the
count of which the defendant was convicted, and not the other facts of the case." (internal
quotation marks omitted) (quoting United States v. Fitzhugh, 954 F.2d 253, 254 (5th Cir.
1992))). Here, the indictment expressly charged Lipscomb with possessing a sawed-off
shotgun as described in 26 U.S.C. § 5845(a)(l)-(2).

14

18-11168.174
Lipscomb v. United States
Petition Appendix

42a

Case: 09-10240 Document: 00511232986 Page: 15 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 15 of 33 PageID 422

No. 09-10240
undertaking a conduct-specific inquiry into the facts of conviction during
sentencing. Id. 12
I agree with that conclusion, 13 and I would hold here that a district court,
after accepting a defendant's plea of guilty to the charge of being a felon in
possession, may make a factual finding as to the characteristics of the firearm
possessed, provided that those characteristics were charged in the indictment.
This approach is consistent with the Supreme Court's decision in Taylor, which
discussed three factors supporting a categorical approach to the 18 U.S.C.
§ 924(e) crime-of-violence determination for prior convictions: (1) statutory

language; (2) legislative history; and (3) "the practical difficulties and potential
unfairness" of ad hoc mini-trials. 495 U.S. at 600-01. Here, those factors weigh
in favor of allowing the district court to make a factual finding as to the
characteristics of the firearm Lipscomb possessed. First, the statutory language
refers to "conduct" rather than "elements." See Calderon-Pena, 383 F.3d at 258
n.6.

Second, the Application Notes were specifically amended to make

possession of a firearm with the characteristics set forth in 26 U.S.C. § 5845(a)
a crime of violence-something not possible under a straightforward categorical
approach. See U.S.S.G. supp. app. C, amend. 674, at 134. Finally, there is no
danger of an ad hoc mini-trial when the conduct at issue was charged in the
indictment for the instant conviction. See Riggans, 254 F.3d at 1203-04. Thus,
the factors that weighed against factual findings in Taylor weigh in support of
them here.

12

The Riggans court also took the broad view that district courts are not limited to
conduct charged in the indictment in making§ 4Bl.2(a)(2) factual findings at sentencing. 254
F.3d at 1204. As discussed above, this view is in direct conflict with Charles and the
Application Notes to§ 4Bl.2.
13

Other circuits disagree. See United States v. Piccolo, 441F.3d1084, 1087 (9th Cir.
2006) (applying the categorical approach under § 4Bl.2(a)(2) to an instant offense of
conviction); United States v. Martin, 215 F.3d 470, 473-74 (4th Cir. 2000) (same).

15

18-11168.175
Lipscomb v. United States
Petition Appendix

43a

Case: 09-10240 Document: 00511232986 Page: 16 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 16 of 33 PageID 423

No. 09-10240
For the foregoing reasons, I concur in the judgment.

16

18-11168.176
Lipscomb v. United States
Petition Appendix

44a

Case: 09-10240 Document: 00511232986 Page: 17 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 17 of 33 PageID 424

No. 09-10240
CARLE. STEWART, Circuit Judge, dissenting:
Eddie Lamont Lipscomb appeals the sentence imposed after he pleaded
guilty to being a felon in possession of a firearm in violation of 18 U.S.C. §
922(g)(l). Lipscomb argues that the district court erred by relying on the
testimony of a police officer at sentencing to establish that his instant offense
was a crime of violence pursuant to United States Sentencing Guideline
(U.S.S.G.) § 4Bl.1, because consideration of such testimony is precluded by the
categorical approach set forth in Taylor u. United States, 495 U.S. 575 (1990).
The majority opinion rejects Lipscomb's argument that we must apply the
categorical approach, and instead relies on the Sentencing Commission's
commentary to U.S.S.G. § 4Bl.2 to affirm the conviction and sentence. For the
following reasons, I respectfully dissent.
I. FACTUAL AND PROCEDURAL BACKGROUND

Lipscomb was charged with possession of a firearm by a convicted felon in
violation of 18 U.S.C. §§ 922(g)(l) and 924(e)(l). The indictment specified that
the firearm Lipscomb possessed was a sawed-off shotgun with an overall length
less than 26 inches and a barrel length less than 18 inches. 1
At the initial rearraignment proceeding, Lipscomb stated that he was
undecided about pleading guilty, and the magistrate judge did not accept his
guilty plea. At the second rearraignment proceeding, Lipscomb requested

1

The indictment stated in its entirety:
Felon in Possession of a Firearm
(Violation of 18 U.S.C. § 922(g)(l) and 924(e)(l))
On or about March 20, 2007, in the Dallas Division of the Northern
District of Texas, the defendant, Eddie Lamont Lipscomb, having being [sic]
convicted of a crime punishable by imprisonment for a term exceeding one year,
did knowingly and unlawfully possess in and affecting interstate and foreign
commerce a firearm, to wit: a Harrington and Richardson, model 88, 20 gauge
shotgun, bearing serial number BA490014, as modified having a barrel ofless
than 18 inches in length, and overall length of less than 26 inches, a weapon
commonly known as a "sawed-off' shotgun. In [sic] violation of 18 U.S.C. §§
922(g)(l) and 924(e)(l).

17

18-11168.177
Lipscomb v. United States
Petition Appendix

45a

Case: 09-10240 Document: 00511232986 Page: 18 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 18 of 33 PageID 425

No. 09-10240
additional time to research a possible defense to the charge, and the district
court granted Lipscomb a continuance. At the third rearraignment proceeding,
Lipscomb finally pleaded guilty to the indictment without the benefit of a
written plea agreement. In the amended factual resume that Lipscomb
submitted, he admitted to possessing a shotgun, but did not admit to the length
of the shotgun.
The presentence report (PSR) stated that Lipscomb was an armed career
criminal pursuant to the Armed Career Criminal Act (ACCA), § 924(e)(l), and
was therefore subject to an enhanced statutory sentence range. The PSR further
stated that Lipscomb was a career offender under U.S.S.G. § 4Bl.1 because,

inter alia, Lipscomb's instant offense was a crime of violence. Pursuant to
§ 4Bl.l, the PSR concluded that Lipscomb's base offense level was 37, and then
applied a two-level reduction for acceptance of responsibility for a total offense
level of 35. Based upon the offense level of 35 and criminal history category of
VI, Lipscomb's Guidelines sentence range was 292 to 365 months of
imprisonment and three to five years of supervised release.
While Lipscomb did not contest that he met the requirements for ACCA,
he objected to his designation as a career offender under§ 4Bl.l. He asserted
that his current offense was not a crime of violence because the determination
of whether the offense is a crime of violence under § 4Bl.1 must be made
according to the categorical approach set forth in Taylor v. United States, 495
U.S. 575 (1990). Lipscomb noted that possession of a firearm by a convicted felon
is not a crime of violence unless the firearm is the type described in 26 U.S.C.
§ 5845(a), but acknowledged that a sawed-off shotgun with a barrel less than 18
inches in length is a firearm described in § 5845(a). He argued, however, that
while the indictment alleged that he possessed a shotgun with a barrel less than
18 inches in length, the district court could not consider this allegation under the
18

18-11168.178
Lipscomb v. United States
Petition Appendix

46a

Case: 09-10240 Document: 00511232986 Page: 19 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 19 of 33 PageID 426

No. 09-10240
categorical approach because the allegation regarding the barrel length was not
necessary to prove the offense under the statute of conviction. In addition to
objecting to the PSR, Lipscomb filed a motion for a downward variance from the
Guidelines sentence range.
At sentencing, the Government presented testimony from a police officer
that the shotgun Lipscomb possessed was less than 26 inches in length and had
a barrel less than 18 inches in length. The district court ruled that it could make
the factual determination at sentencing that the firearm was the type described
in § 5845(a) and apply the career offender enhancement on that basis because
the dispute concerned whether the present offense, not a prior offense, was a
crime of violence. Accordingly, it overruled Lipscomb's objections and adopted
the Guidelines sentence range calculations set forth in the PSR. The district
court granted Lipscomb's motion for a downward variance, 2 and sentenced
Lipscomb to 240 months of imprisonment and five years of supervised release.
Lipscomb objected to the sentence and the district court overruled the objection.
The Government inquired whether the district court would have imposed the
same sentence even if it had granted Lipscomb's objection to the career offender
enhancement, and the district court responded that it would then reconsider the
sentence imposed.
Lipscomb appeals his sentence, challenging only the district court's
determination that his instant offense, possession of a firearm by a convicted
felon in violation of 18 U.S.C. §§ 922(g)(l) and 924(e)(l), was a crime of violence.
2
The district court granted the downward variance on the grounds that Lipscomb did
not actually own the shotgun and did not intentionally acquire the shotgun. Lipscomb attested
that he got into a borrowed car, which he was driving at the time of his arrest, without
knowing that there was a shotgun under the seat. The court stated that it "assume[d] for
purposes of the proceeding that [Lipscomb] didn't necessarily know that the weapon was there,
but []probably should have" and that it had "serious doubts that [Lipscomb] actually owned,
or had intentions to commit a crime with respect to the firearm at issue."

19

18-11168.179
Lipscomb v. United States
Petition Appendix

47a

Case: 09-10240 Document: 00511232986 Page: 20 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 20 of 33 PageID 427

No. 09-10240

II. STANDARD OF REVIEW
A district court's interpretation or application of the Sentencing Guidelines
is reviewed de novo, and its factual findings are reviewed for clear error. United

States u. Cisneros-Gutierrez, 517 F.3d 751, 764 (5th Cir. 2008). Other than a
defendant's age at the time of the present offense, "the determinations made in
the course of a career offender classification are all questions of law." United

States u. Guevara, 408 F.3d 252, 261 (5th Cir. 2005). Thus, "[c]haracterizing an
offense as a crime of violence is a purely legal determination." Id. at 261 n.10.

III. DISCUSSION
Under§ 4Bl.1, a defendant is a career offender if:
(1) the defendant was at least eighteen years old at the time the
defendant committed the instant offense of conviction;
(2) the instant offense of conviction is a felony that is either a crime
of violence or a controlled substance offense; and
(3) the defendant has at least two prior felony convictions of either
a crime of violence or a controlled substance offense.
U.S.S.G. § 4Bl.l(a). Lipscomb argues that his instant offense of conviction,
under 18 U.S.C. § 922(g)(l), 3 did not qualify as a crime of violence as required by
§ 4Bl.1(2). 4
A "crime of violence" under§ 4Bl. l(a) is defined in§ 4Bl.2(a) as:

any offense under federal or state law, punishable by imprisonment
for a term exceeding one year, that-3

18 U.S.C. § 922(g)(l) provides that:

It shall be unlawful for any person- ... who has been convicted in any court of,
a crime punishable by imprisonment for a term exceeding one year ... to ship
or transport in interstate or foreign commerce, or possess in or affecting
commerce, any firearm or ammunition; or to receive any firearm or ammunition
which has been shipped or transported in interstate or foreign commerce.
4

There is no dispute that Lipscomb satisfies§ 4Bl.l(l) and (3).

20

18-11168.180
Lipscomb v. United States
Petition Appendix

48a

Case: 09-10240 Document: 00511232986 Page: 21

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Date Filed: 09/14/2010

Page 21 of 33 PageID 428

No. 09-10240
(1) has as an element the use, attempted use, or threatened
use of physical force against the person of another, or
(2) is burglary of a dwelling, arson, or extortion, involves use
of explosives, or otherwise involves conduct that presents a
serious potential risk of physical injury to another.
U.S.S.G. § 4Bl.2(a). Section 4Bl.2(a) actually provides three separate definitions
of"crime of violence." United States v. Hughes, 602 F.3d 669, 673 (5th Cir. 2010).
First, "a crime qualifies if 'physical force against the person of another' is an
element of the offense." Id. at 673-7 4 (citing Johnson v. United States, 130 S. Ct.
1265 (2010)). "Second, a crime qualifies if it is an enumerated offense: burglary,
arson, or extortion." Id. at 674 (citing Taylor, 495 U.S. 575 (1990)). "Third, a
crime qualifies if it fits the residual clause, which focuses on 'potential risk of
physical injury to another.'" Id. (citing Begay v. United States, 553 U.S. 137
(2008)).
The application notes to § 4Bl.2 specifically provide that "'[c]rime of
violence' does not include the offense of unlawful possession of a firearm by a
felon, unless the possession was of aJirearm described in 26 U.S.C. § 5845(a)."
§ 4B 1.2 app. n. l. A shotgun modified so that it "has an overall length ofless than
26 inches or a barrel or barrels of less than 18 inches in length" is a firearm
described in§ 5845(a). See 26 U.S.C. § 5845(a).
As Lipscomb's instant offense of possession of a firearm by a convicted
felon does not have the use, attempted use, or threatened use of physical force
as an element and is not an enumerated offense, the issue here is whether
Lipscomb's present offense "otherwise involves conduct presenting a serious risk
of injury to another" under the residual clause of§ 4B 1.2(a)(2). See United States

v. Serna, 309 F.3d 859, 862 & n.6 (5th Cir. 2002) (holding that the Texas offense
of possession of a prohibited weapon could only qualify as a crime of violence
under the residual clause of§ 4Bl.2(a)(2)).
21

18-11168.181
Lipscomb v. United States
Petition Appendix

49a

Case: 09-10240 Document: 00511232986 Page: 22 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 22 of 33 PageID 429

No. 09-10240

A. Applicability of the Categorical Approach to the Instant Offense
In making a determination that a prior offense is a crime of violence under
§ 4Bl.2(a), it is axiomatic that courts must employ the categorical approach as
set forth in Taylor v. United States, 495 U.S. 575, 602 (1990), and Shepard v.

United States, 544 U.S. 13, 15 (2005), looking at the nature of the prior
conviction and not the specific facts of the offense. See United States v.

Rodriguez-Jaimes, 481 F.3d 283, 286 (5th Cir. 2007). In United States v.
Guevara, we held that the categorical approach also applies to evaluating
whether the instant offense is a crime of violence. 408 F.3d at 261-62 (citing

United States v. Calderon-Pena, 383 F.3d 254 (5th Cir. 2004) (en bane)). We
again applied the categorical approach to an instant offense in United States v.

Dentler, holding that the instant offense had been wrongly classified as a crime
of violence where the statute of conviction did not include violence as an
essential element, even though the facts of the offense demonstrated violence
and the jury made a specific finding of violence. 5 492 F.3d 306, 314 (5th Cir.
2007).
Moreover, Application Note 2 to§ 4Bl.2 states that:
Section 4Bl.1 (Career Offender) expressly provides that the instant
and prior offenses must be crimes of violence or controlled substance
offenses of which the defendant was convicted. Therefore", in
determining whether an offense is a crime of violence or controlled

5

In Dentler, the court relied on the categorical approach analysis and conclusions in
United States v. Jones, 993 F.2d 58, 61-62 (5th Cir. 1993). Jones held that "the jury could
convict Jones of count two [ACCA] only if it found he committed a crime of violence," but the
subsection of the disjunctive statute charged in count one of the indictment did not include the
essential element of violence. Id. at 62. The Jones court therefore reversed the ACCA
conviction. Id. Although Jones evaluated whether the offense at issue was a crime of violence
for purposes of applying ACCA, this court has consistently applied our crime of violence
holdings under ACCA to analyze the definition of crimes of violence under § 4Bl.2, and vice
versa. See United States v. Mohr, 554 F.3d 604, 609 n.4 (5th Cir. 2009) (citing cases).

22

18-11168.182
Lipscomb v. United States
Petition Appendix

50a

Case: 09-10240 Document: 00511232986 Page: 23 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 23 of 33 PageID 430

No. 09-10240
substance for the purposes of§ 4B 1.1 (Career Offender), the offense
of conviction (i.e., the conduct of which the defendant was convicted)
is the focus of inquiry.
§ 4Bl.2 app. n.2 (emphasis added). Thus, the Sentencing Guidelines anticipate
that the evaluation of instant and prior offenses will be conducted in like manner
applying the categorical approach. Further, evaluating prior offenses under the
categorical approach, but not the instant offense, would lead to troubling and
inconsistent results; specifically, during sentencing for the instant offense, a
court might conclude that the offense was a crime of violence based on specific
factual findings, but for the purposes of later determining whether that
particular offense constitutes a prior crime of violence, the statute of conviction
would speak for itself-under the categorical approach-that it is not a crime of
violence. Accordingly, the rationale for applying the categorical approach to both
the instant and prior offenses is sound and there is no justification for enabling
such conflicting results. 6
1. Guevara Survives Booker

The Government acknowledges Guevara and Dentler, but argues that the
categorical approach is not applicable here because the sentencing in Guevara
was held prior to United States v. Booker, 543 U.S. 220 (2005). 7 While the

6

The Fourth and Ninth Circuits have also held that "the crime-of-violence
determination under U.S.S.G. § 4Bl.2, a legal question, is properly decided under Taylor's
categorical analysis in cases of both prior and current offenses." United States u. Piccolo, 441
F.3d 1084, 1087 (9th 2005); see United States u. Martin, 215 F.3d 470, 472-75 (4th Cir. 2000).
The Tenth Circuit, however, rejects the categorical approach in favor of "a conduct-specific
inquiry" when considering the instant offense of conviction. United States u. Riggans, 254 F.3d
1200, 1203-04 (10th Cir. 2001).
7

In United States u. Booker, the Supreme Court held that the then mandatory nature
of the Sentencing Guidelines violated a defendant's Sixth Amendment rights, and the
maximum sentence that a judge may impose must be determined solely on the basis of facts
reflected in a jury verdict or admitted by the defendant. 543 U.S. 220 (2005).

23

18-11168.183
Lipscomb v. United States
Petition Appendix

51a

Case: 09-10240 Document: 00511232986 Page: 24 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 24 of 33 PageID 431

No. 09-10240
sentencing in Guevara took place prior to Booker, this court affirmed the
sentence post-Booker and clearly stated that the career offender determinations
were made using the categorical approach and did not violate the Sixth
Amendment under Booker-obviating any possibility that the holding in

Guevara would be modified by Booker. Guevara, 408 F.3d at 261-62.
Furthermore, the Dentler sentencing took place post-Booker and held that the
district court plainly erred by not following the Jones court's previous application
of the categorical approach with respect to the instant offense. Dentler, 492 F.3d
at 313.
The Government also observes that, after Booker, district courts may now
make factual findings necessary to support a career offender determination
without violating the Sixth Amendment. Although post-Booker "the Sixth
Amendment will not impede a sentencing judge from finding all facts relevant
to sentencing," United States v. Mares, 402 F.3d 511, 519 (5th Cir. 2005), our
caselaw nonetheless consistently requires courts to apply the categorical
approach to Guidelines determinations as required by Taylor and its progeny-a
line of authority distinct from Booker. See, e.g., United States v. Mohr, 554 F.3d
604, 607 (5th Cir. 2009) ("In determining whether an offense qualifies as a crime
of violence under the residual clause, this Court applies the categorical approach
set out in Taylor and Shepard.") (full citations omitted).
2. Guevara Applies to Both§§ 4Bl.2(a)(l) and (2)

The Government alternatively asks the court to narrowly construe

Guevara and Dentler to apply only to cases that involve whether an offense was
a crime of violence under§ 4Bl.2(a)(l) because it had the use, attempted use, or
threatened use of force as an element of the offense. Although both Guevara and

Dentler did base their crime of violence determinations on the absence of a
statutory element of violence or use of force, Guevara's explicit holding precludes
24

18-11168.184
Lipscomb v. United States
Petition Appendix

52a

Case: 09-10240 Document: 00511232986 Page: 25 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 25 of 33 PageID 432

No. 09-10240
such a construction. Guevara specifically held that the categorical approach
applied to crime of violence determinations based upon enumerated offenses and
the residual clause of§ 4B 1.2(a)(2), as well as crime of violence determinations
based upon§ 4Bl.2(a)(l). 408 F.3d at 261-62. The Guevara court did not indicate
that there were any exceptions to the use of the categorical approach, stating:
Section 4B 1.2(a)(2) instructs courts to consider the instant offense
a crime of violence if it is "burglary of a dwelling, arson, or extortion,
involves use of explosives, or otherwise involves conduct that
presents a serious potential risk of physical injury to another." Our
caselaw interpreting that provision has categorically forbidden
courts from looking beyond the statute and the indictment in
making this decision. Therefore, as is the case with § 4B 1.2(a)(l),
under § 4B 1.2(a)(2) the sentencing court cannot base its crime-ofviolence determination on anything beyond what is present in the
statute or alleged in the indictment, elements as to which, to
convict, the jury must have found evidence beyond a reasonable
doubt ....

Id. at 261-62 (internal citations omitted).
3. Application Note 1 and the Rules of Statutory Construction
The Government also claims that Guevara and Dentler do not control here
because Application Note 1 to§ 4Bl.2 does not implicate the "broad definition"
of crime of violence. The Government relies on the venerable principle that "in
most contexts, a precisely drawn, detailed statute pre-empts more general
remedies." Hinck v. United States, 550 U.S. 501, 506 (2007) (internal quotation
marks and citations omitted). The Government's argument rests on the false
premise, however, that Sentencing Guidelines' application notes create new
freestanding provisions.

Application notes only clarify the Guidelines'

provisions. See United States v. Ollison, 555 F.3d 152, 165 (5th Cir. 2007) (citing

Stinson v. United States, 508 U.S. 36, 38 (1993)) ("Commentary in the Guidelines
Manual that interprets or explains a guideline is authoritative unless it violates

25

18-11168.185
Lipscomb v. United States
Petition Appendix

53a

Case: 09-10240 Document: 00511232986 Page: 26 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 26 of 33 PageID 433

No. 09-10240
the Constitution or a federal statute, or is inconsistent with, or a plainly
erroneous reading of that guideline."). Unlawful possession of a sawed-off
shotgun, like any crime of violence under§ 4Bl.2, must fall within the definition
of either §§ 4B 1.2(a)(l) or (a)(2)-that is, the crime must still either involve the
use of force, be an enumerated offense, or fall within the residual clause. 8
4. Distinguishing ACCA from Career Offender Enhancements

In Guevara, just as in the present case, the defendant challenged a career
offender determination under§ 4Bl.l, not a determination under ACCA that
enhanced his statutory maximum sentence.

The Government, however,

attempts to distinguish Guevara on the grounds that the line of cases from which

Guevara evolved was based upon Taylor and Shepard, which involved ACCA
determinations.

The Government's attenuated distinction would require

disavowing years of precedent. "The [ACCA] definition of 'violent felony' is
identical to that of 'crime of violence' in the Guidelines context." Mohr, 554 F.3d
at 609. The method used to categorize convictions has never turned on whether
the determination will impact the statutory maximum; the same categorical
approach applies under ACCA or§ 4Bl.2. 9 See id. at n.4 ("We have previously
8

As explained above, unlawful possession of a sawed-off shotgun would only fall within
the residual clause as an offense that "otherwise involves conduct that presents serious
potential risk of physical injury to another." U.S.S.G. § 4Bl.2(a)(2); see Serna, 309 F.3d at 862
&n.6.
9

For the sake of clarity, I note that this court frequently also utilizes crime of violence
determinations pursuant to U.S.S.G. § 2Ll.2, for illegal reentry sentencing, to analyze the
definition of crimes of violence under ACCA and§ 4Bl.2, and vice versa. See United States v.
Garcia, 470 F.3d 1143, 1147 n.5 (5th Cir. 2006) (considering previous crime of violence
holdings under§ 2Ll.2 for purposes of making a§ 4Bl.2(a)(l) crime of violence determination).
Such comparisons are inappropriate, however, when addressing ACCA or§ 4Bl.2(a)(2) crime
of violence determinations under the residual clause because Application Note l(B)(iii) to§
2Ll.2, defining crime of violence for purposes of§ 2Ll.2, does not contain a residual clause.
See United States v. Calderon-Pena, 383 F.3d 254, 261 (5th Cir. 2004) (en bane) (recognizing
this distinction between§ 2Ll.2 and§ 4Bl.2); see also United States v. Charles, 301F.3d309,
315-16 (5th Cir. 2002) (en bane) (DeMoss, J., specially concurring) ("I write separately to

26

18-11168.186
Lipscomb v. United States
Petition Appendix

54a

Case: 09-10240 Document: 00511232986 Page: 27 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 27 of 33 PageID 434

No. 09-10240
applied our holdings under the residual clause of the ACCA to analyze the
definition of crimes of violence under § 4B 1.2, and vice versa"); see also United

States v. Hawley, 516'F.3d 264, 271-72 (5th Cir. 2008) ("Section 4Bl.2 of the
Guidelines contains the same Otherwise Clause as§ 924(e) in defining 'crime of
violence"'); Dentler, 492 F.3d at 313. 10
In my view, the Government's attempts to avoid the application of the
categorical approach run afoul of this court's rulings in Guevara and Dentler,
and the language of§ 4Bl.1. Both Guevara and§ 4Bl.1 expressly provide that
the instant and prior offenses must be crimes of violence (or controlled substance
offenses) of which the defendant was convicted, and that the categorical
approach governs such determinations. Accordingly, the district court was
required to apply the categorical approach in making its determination that
Lipscomb's present offense was a crime of violence under§ 4Bl.2(a).

B. Application of the Categorical and Modified Categorical Approaches
I now turn to whether Lipscomb's present offense was a crime of violence
when examined under the categorical and modified categorical approaches. See

Sojourner T v. Edwards, 974 F.2d 27, 30 (5th Cir. 1992) (This court may "affirm
the district court's judgment on any grounds supported by the record.").
"In determining whether an offense qualifies as a crime of violence under
the residual clause, this Court applies the categorical approach" as set out in

amplify the, nature and extent of the confusion and ambiguities which exist as to the meaning
of the term 'crime of violence' .... I can see no rational justification for a defined term such as
'crime of violence' ... to have this many different meanings.").
10

Other circuits have likewise extended the Supreme Court's ACCA rulings regarding
the categorical approach to the Guidelines career offender enhancement context under§ 4Bl.2.
See United States v. McDonald, 592 F.3d 808, 810-11 (7th Cir. 2010); United States v.
Furqueron, F.3d 612, 614 (8th Cir. 2010); United States v. Alexander, 609 F.3d 1250, 1253,
(11th Cir. 2010); United States v. Dennis, 551 F.3d 986, 988-89 (10th Cir. 2008); Piccolo, 441
F.3d at 1086.

27

18-11168.187
Lipscomb v. United States
Petition Appendix

55a

Case: 09-10240 Document: 00511232986 Page: 28 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 28 of 33 PageID 435

No. 09-10240

Taylor and Shepard. Mohr, 554 F.3d at 607; see also United States v.
Insaulgarat, 378 F.3d 456, 467 (5th Cir. 2004). Under the categorical approach,
"we consider the offense generically, that is to say, we examine it in terms of how
the law defines the offense and not in terms of how an individual offender might
have committed it on a particular occasion." Begay, 553 U.S. at 141; see also

James v. United States, 550 U.S. 192, 201 (2007) ("[W]e look only to the fact of
conviction and the statutory definition of the prior offense, and do not generally
consider the particular facts disclosed by the record of conviction.") (internal
quotations marks and citations omitted). "That is, we consider whether the

elements of the offense are of the type that would justify its inclusion within the
residual provision, without inquiring into the specific conduct of this particular
offender." James, 550 U.S. at 201. The court thereby avoids the practical
difficulty of trying to ascertain whether the defendant's crime, "as committed on
a particular occasion, did or did not involve violent behavior." Chambers v.

United States, 129 S. Ct. 687, 690 (2009).
Although the strict categorical approach is the starting point of the
analysis, it is not necessarily the ending point. Courts may look beyond the
statutory definition and apply a "modified categorical approach" under limited
circumstances. Johnson, 130 S. Ct. at 1273. As the Supreme Court recently
explained in Nijhawan v. Holder:
[S]ometimes a separately numbered subsection of a criminal statute
will refer to several different crimes, each described separately. And
it can happen that some of these crimes involve violence while
others do not .... In such an instance, we have said, a court must
determine whether an offender's prior conviction was for the violent,
rather than the nonviolent [crime], by examining "the indictment or
information and jury instructions," Taylor, supra, at 602, 110 S. Ct.
2143, or, if a guilty plea is at issue, by examining the plea
agreement, plea colloquy or "some comparable judicial record" of the

28

18-11168.188
Lipscomb v. United States
Petition Appendix

56a

Case: 09-10240 Document: 00511232986 Page: 29 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 29 of 33 PageID 436

No. 09-10240
factual basis for the plea. Shepard v. United States, 544 U.S. 13, 26,
125 S. Ct. 1254, 161 L. Ed.2d 205 (2005).
129 S. Ct. 2294, 2299 (2009); see also Johnson, 130 S. Ct. at 1273. Consistent
with Nijhawan and Johnson, this court has explained that "[w]hen a defendant
is convicted under a statute that contains disjunctive subsections, the court may
look to the charging documents 'to determine by which method the crime was
committed in a particular case .... "' Mohr, 554 F.3d at 607 (quoting United

States v. Riva, 440 F.3d 722, 723 (5th Cir. 2006)).
Accordingly, I begin with whether the offense of conviction, 18 U.S.C. §
922(g), contains multiple crimes. See Hughes, 602 F.3d at 676. Section 922(g)
contains multiple crimes; parsing the language of the statute produces at least
twenty separate offenses. See 18 U.S.C. § 922(g). Applying the modified
categorical approach for the purpose of determining "which statutory phrase was
the basis for the conviction," Johnson, 130 S. Ct. at 1273, I look to "the terms of
the charging document, the terms of a plea agreement or transcript of colloquy
between judge and defendant in which the factual basis for the plea was
confirmed by the defendant, or to some comparable judicial record of this
information," Shepard, 544 U.S. at 26. The language of the indictment narrows
the offense to "[i]t shall be unlawful for any person who has been convicted of
a crime punishable by imprisonment for a term exceeding one year to possess
a firearm in or affecting interstate and foreign commerce."
Ordinarily, this court would next turn to evaluating whether the
conviction constitutes a crime of violence because it is "roughly similar" to the
enumerated offenses in§ 4Bl.2(a). See Begay, 553 U.S. at 143; United States v.

Harriman, 568 F .3d 531, 534-35 (5th Cir. 2009). Here, however, such analysis
is unnecessary in light of the specific instructions of Application Note 1 to
§ 4Bl.2. See Ollison, 555 F.3d at 165 (citing Stinson, 508 U.S. at 38)
29

18-11168.189
Lipscomb v. United States
Petition Appendix

57a

Case: 09-10240 Document: 00511232986 Page: 30 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 30 of 33 PageID 437

No. 09-10240
("Commentary in the Guidelines Manual that interprets or explains a guideline
is authoritative unless it violates the Constitution or a federal statute, or is
inconsistent with, or a plainly erroneous reading of that guideline."). As noted
above, Application Note 1 provides that possession of a firearm by a convicted
felon is not a crime of violence unless the firearm possessed was a firearm
described in§ 5845(a). See U.S.S.G. § 4Bl.2, app. n.1.
Thus, the pertinent issue becomes whether anything that the district court
was allowed to consider under the categorical approach or modified categorical
approach demonstrated that the firearm possessed by Lipscomb was a firearm
described in§ 5845(a). The Government argues that the district court could have
looked to Lipscomb's admissions under oath 11 or to the indictment's allegations
that the firearm was a shotgun with an overall length less than 26 inches and
barrel length less than 18 inches. 12
But in accordance with Nijhawan and Johnson, under the modified
categorical approach the court's consideration of the indictment and other
judicial documents must end upon ascertaining "which statutory phrase
(contained within a statutory provision that covers several different generic
crimes)" covered the conviction. Nijhawan, 129 S. Ct. at 2303. The modified
approach provides no license for further consideration of the indictment or
judicial documents.

11

Even if the district court had considered Lipscomb's plea colloquy and factual resume,
the record shows that while Lipscomb admitted that the firearm was a sawed-off shotgun, he
never admitted that the barrel length of the firearm was less than 18 inches or that the overall
length was less than 26 inches.
12

The Government argues that by pleading guilty to the indictment, Lipscomb
necessarily admitted all the factual allegations contained in the indictment. This court has
not yet had cause to address that contentious question, nor does the court have reason to reach
the issue here. See United States v. Morales-Martinez, 496 F.3d 356, 359 (5th Cir. 2007).

30

18-11168.190
Lipscomb v. United States
Petition Appendix

58a

Case: 09-10240 Document: 00511232986 Page: 31

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Date Filed: 09/14/2010

Page 31 of 33 PageID 438

No. 09-10240
Consequently, the court may consider only the elements contained within
the statutory definition of the crime. James, 550 U.S. at 201. The relevant
statutory phrase of§ 922(g)(l) has three elements: (1) the defendant had a prior
conviction of a crime punishable by imprisonment for a term exceeding one year;
(2) he knowingly possessed a firearm; (3) the firearm was in or affecting
interstate commerce. 18 U.S.C.§ 922(g)(l). Nothing in the felon in possession
statute mentions the characteristics of the weapon, and the language of the
statute is as far as the categorical approach extends. Anything further would be
a prohibited inquiry into "the specific conduct of this particular offender." James,
550 U.S. at 202. The Government's arguments are therefore without merit
because (1) after determining the relevant statutory provision, the court may not
delve further into the indictment or plea colloquy under the modified categorical
approach, and (2) the type of firearm possessed is not an element of a conviction
for possession of a firearm by a convicted felon under§ 922(g)(l) pursuant to the
categorical approach.
Although the Government argues that the type of weapon was an essential
element of conviction because it would have been required to prove that
Lipscomb possessed the firearm described in the indictment at trial, this court
has in fact reached the contrary conclusion. See United States v. Guidry, 406
F.3d 314, 322 (5th Cir. 2005) (no fatal variance between the indictment and the
proof offered at trial when the indictment alleged possession of a 9mm Kurz and
the evidence at trial showed the defendant possessed a .380-caliber pistol
because the type of weapon possessed was not an essential element of the
offense); United States v. Munoz, 150 F.3d 401, 417 (5th Cir. 1998) (no
constructive amendment where government identified the firearm as a 12-gauge
shotgun and the evidence showed that it was a 20-gauge; gauge of shotgun was
not an essential element of the charged offense).
31

18-11168.191
Lipscomb v. United States
Petition Appendix

59a

Case: 09-10240 Document: 00511232986 Page: 32 Date Filed: 09/14/201 O

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 32 of 33 PageID 439

No. 09-10240
The Government further argues that by holding that the categorical
approach precludes a court from making factual findings regarding the weapon
at issue in the§ 922(g)(l) conviction for purposes of§ 4Bl.2, this court entirely
undermines the § 5845(a) exception included in Application Note 1. I disagree.
A felon in possession of a short-barreled shotgun (or another type of firearm
specified in § 5845(a)) may qualify for career offender enhancements based on
state convictions. See, e.g., ALA. CODE 1975 § 13A-11-63; Mo. REV. STAT. §
571.020; TENN. CODE ANN.§ 39-17-1302; TEX. PEN. CODE§ 46.05; see also Serna,
309 F.3d at 862-63. Moreover, Application Note 1 does not support an exception
to the categorical approach in cases involving unlawful possession of a firearm
described in 26 U.S.C. § 5845(a). Application Note 1 only states that "'crime of
violence' does not include the offense of unlawful possession of a firearm by a
felon, unless the possession was of a firearm described in 26 U.S.C. § 5845(a)."
U.S.S.G. § 4Bl.2, app. n.1. It does not address the application of the categorical
approach to these offenses.
To summarize, in determining whether an offense is a crime of violence for
the purposes of§ 4B 1.1, under the categorical and modified categorical approach,
the offense of conviction should be the focus of inquiry. The indictment and other
judicial documents listed in Shepard may be relied upon only to prove facts
necessary to the conviction, Shepard, 544 U.S. at 20-21, or for purposes of
discerning under which statutory phrase of a disjunctive statute the defendant
was convicted, Johnson, 130 S. Ct. at 1273. Because the testimony at sentencing
on which the district court relied in determining that Lipscomb's instant offense
involved a firearm described in § 5845(a) was not evidence that may be
considered under the categorical approach, I would hold that the district court's
reliance on that testimony was erroneous. Further, the court could not have
considered the allegations in the indictment or the plea colloquy for purposes of
32

18-11168.192
Lipscomb v. United States
Petition Appendix

60a

Case: 09-10240 Document: 00511232986 Page: 33 Date Filed: 09/14/2010

Case 3:07-cr-00357-M Document 64 Filed 01/25/11

Page 33 of 33 PageID 440

No. 09-10240
establishing the characteristics of the weapon because those characteristics were
not necessary to determine "which statutory phrase was the basis for conviction"
under § 922(g)(l). Id.

III. CONCLUSION
For the reasons discussed, the district court erred in concluding that
Lipscomb's instant crime was a crime of violence and sentencing him as a career
offender on that basis. I would vacate the sentence and remand to the district
court for resentencing. Because the majority opinion adopts a contrary result,
I respectfully dissent.

33

18-11168.193
Lipscomb v. United States
Petition Appendix

61a

